<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--At the direction of the subcommittee 
chairman, the following statements received by the subcommittee 
are made part of the hearing record on the Fiscal Year 2011 
Transportation and Housing and Urban Development, and Related 
Agencies Appropriations Act.]

     Prepared Statement of the Coalition of Northeastern Governors

    The Coalition of Northeastern Governors (CONEG) is pleased to share 
with the Subcommittee on Transportation, Housing and Urban Development, 
and Related Agencies this testimony on fiscal year 2011 appropriations 
for transportation and community development programs. The CONEG 
Governors deeply appreciate the subcommittee's longstanding support of 
funding for the Nation's highway, transit, and rail systems and 
critical community development programs, including the incorporation of 
transportation and community development funding in last year's 
comprehensive American Recovery and Reinvestment Act (ARRA). The 
welcomed infusion of those flexible funds allowed States and local 
governments to advance many needed projects. The overwhelming response, 
particularly to the intercity passenger rail and multi-modal grant 
funds, also demonstrated the diverse and enormous needs for investment 
in an integrated national transportation system that supports a 
competitive economy, livable communities, and sound use of energy and 
environmental resources. Those needs continue to confront all of us--
Federal, State and local governments and the private sector.
    We recognize that the subcommittee continues to face a very 
difficult set of fiscal challenges and interlocking issues in crafting 
the fiscal year 2011 appropriations measure. The slowly recovering 
economy exacerbates the shortfall in the Highway Trust Fund even as it 
generates greater demand for public transportation and intercity 
passenger rail services. The ongoing national debate on the surface 
transportation authorization and funding framework to guide highway and 
transit programs remains unresolved. Interest is growing in new 
approaches to funding, restructuring and financing highway and transit 
programs, and creating livable communities, yet many of these 
approaches are not authorized. In spite of these challenges, we urge 
the subcommittee to continue the strong Federal partnership so vital 
for a national, integrated, multi-modal transportation system. This 
network underpins the competitiveness of the Nation's economy, broadens 
employment opportunities, and contributes to the efficient, safe, 
environmentally sound, and energy smart movement of people and goods.

                             TRANSPORTATION

Surface Transportation
    The CONEG Governors urge the subcommittee to fund the combined 
highway, public transit, and safety programs at levels greater than the 
fiscal year 2010 appropriations. This higher level of Federal 
investment is necessary to sustain the progress made under the most 
recent authorization to improve the condition and safety of the 
Nation's highways, bridges, and transit systems. Attention is also 
needed to address the recurring shortfall in the Highway Account of the 
Highway Trust Fund.
    Continued and substantial Federal investment in these 
infrastructure improvements--in urban, suburban, exurban, and rural 
areas--is necessary to safely and efficiently move people and products 
and to support the substantial growth in freight movement projected in 
the coming decades. The Federal Government has invested significant 
resources in the Nation's transportation system, and has a continuing 
responsibility to maintain and expand its transportation infrastructure 
to keep America competitive in a global economy.
    Specifically, the CONEG Governors urge the Subcommittee to:
  --Increase the Federal aid highway obligation over the fiscal year 
        2010 appropriated level;
  --Increase public transit funding over the fiscal year 2010 
        appropriated levels, including full funding for the current 
        Formula and Bus Grants, the Capital Investment Grants, and the 
        Small Starts programs; and
  --Ensure that these funds are provided to the States in a timely 
        manner.
Rail
    The Governors deeply appreciate the subcommittee's strong support 
for intercity passenger rail, through the commitment of ARRA funds and 
the fiscal year 2010 appropriations levels. The overwhelming response 
to the initial AARA funds demonstrated the pent-up interest in 
investments to expand and improve intercity passenger rail service 
across the Nation. Now, new policy, program and funding frameworks for 
a vastly improved and expanded national intercity passenger rail system 
are taking shape under the guidance of the Passenger Rail Investment 
and Improvement Act (PRIIA), the High Speed Intercity Passenger Rail 
Vision and Strategic Guidance, the Preliminary National Rail Plan, and 
Amtrak's Comprehensive Business Plan.
    The administration, States, Amtrak and freight railroads worked 
intensely over the past year to respond to the new intercity passenger 
rail program and funding requirements. Those efforts are now showing 
results as the Federal Railroad Administration (FRA) prepares to 
release the first awards under ARRA; the States begin submitting 
applications for the fiscal year 2010 corridor planning and capital 
funds; and the administration prepares the National Rail Plan.
    The ability of States, FRA and Amtrak to realize opportunities for 
service expansion and ridership growth in corridors across the country 
will depend upon a substantial and on-going Federal capital investment 
in infrastructure, equipment, and safety. These investments in ``state 
of good repair,'' capacity, and safety improvements are essential for 
the accessible, reliable, frequent and on-time service that attracts 
and retains ridership. In addition, the Federal Railroad Administration 
will need adequate funding and staffing resources to carry out its 
expanded responsibilities for intercity passenger rail grant programs 
and related studies in a timely manner.
    Amtrak.--The CONEG Governors request that the subcommittee provide 
at least the authorized level of $1.927 billion in fiscal year 2011 
Federal funding for Amtrak, with specific funding levels provided for 
operations, capital, debt service, and the Amtrak Office of Inspector 
General. Additional capital resources are needed if Amtrak is to 
initiate its fleet program in a timely manner. A balanced program of 
adequate, sustained capital investment in infrastructure (including 
stations) and fleet modernization and expansion is vital for an 
efficient intercity passenger rail system that provides reliable, safe, 
quality services that attract and retain riders.
    A funding level of $1.025 billion in fiscal year 2011 for capital 
improvements is critically needed for the ``state of good repair'' 
improvements to aging infrastructure and safety improvements on Amtrak-
owned infrastructure and equipment. Even at its requested level, Amtrak 
expects that the backlog of deferred investments (currently estimated 
at approximately $5.5 billion) will continue to increase. For example, 
Amtrak estimates that $700 million is needed annually just on the 
Northeast corridor (NEC) main line and branch lines for normalized 
replacement of assets and progress on reducing the backlog of deferred 
investment. This level of capital investment is vital to Amtrak's 
ability to deliver efficient, reliable, quality service nationwide. We 
particularly encourage the subcommittee to ensure that Amtrak can 
continue bridge repair projects underway on the Northeast corridor, as 
well as the system-wide security upgrades and the life-safety work in 
the New York, Baltimore, and Washington, DC tunnels.
    Amtrak has also identified $446 million as the level of investment 
needed in fiscal year 2011 to begin executing its multiyear fleet plan. 
Timely action on a systematic plan to replace aging equipment used 
throughout the intercity passenger rail system can help modernize the 
current Amtrak fleet; offer the prospect of more efficient procurement 
by Amtrak and by States supporting corridor services; and help 
stimulate the growth of the domestic rail manufacturing sector.
    Intercity Passenger Rail Corridors.--The CONEG Governors also thank 
the subcommittee for its support of the Intercity Passenger Rail 
Corridor Capital Assistance Program, particularly the provision of 
funds for the planning activities leading to the development of 
passenger rail corridors, including multistate corridors. We urge the 
subcommittee to continue funding this critical program at least at the 
$2.5 billion level in fiscal year 2011. This program is an important 
foundation for a vibrant Federal-State partnership that will bring 
expanded, enhanced intercity passenger rail service to corridors across 
the Nation. Infrastructure and service plans for these intercity 
passenger rail corridors take many forms and are at different stages 
across the country, reflecting the diverse range of city pairs, market 
opportunities, and travel time needs. Therefore, we urge that these 
grant funds be available to States to advance plans for reliable, 
frequent and travel-time competitive service and corridors, regardless 
of maximum speed requirements. In light of the stringent FRA 
requirements regarding funding criteria for intercity passenger rail 
grants, we also request that the subcommittee waive the current 
statutory requirement that projects be part of an approved State rail 
plan, since this requirement might curtail thoughtful and well advanced 
efforts already underway by the States.
    Northeast Corridor Infrastructure and Operations Advisory 
Commission.--The Governors thank the subcommittee for providing funding 
for the Northeast Corridor Infrastructure and Operations Advisory 
Commission (Commission) in fiscal year 2010. The NEC Governors have 
named their representatives to the Commission, and are eager to see it 
organized and begin its important work. The Commission is uniquely 
designed to encourage mutual cooperation and planning among all three 
parties for intercity, commuter and freight use of the Corridor--and to 
also maximize the economic growth and the energy and environmental 
benefits of the larger regional NEC Network.
    The Commission has extensive responsibilities to set corridor-wide 
policy goals and recommendations that encompass passenger rail 
mobility, intermodal connections to highways and airports, energy 
consumption, air quality improvements, and local and regional economic 
development of the entire northeast region. The Commission is expected 
to play a central role in providing guidance to the Vision and service 
development plans that are a pre-requisite for the NEC to seek 
corridor-level funds under the newly emerging Federal framework for 
intercity passenger rail. To conduct the required assessments in a 
timely manner, the Commission will need resources, data and expert 
analysis that exceed that which is currently available through the 
staff of the States, Amtrak and FRA. Continued funding in fiscal year 
2011 will ensure the Commission's ability to secure all essential 
resources for conducting these assessments.
    Other Programs.--A number of other national rail programs are 
important components of the evolving Federal-State-private sector 
partnerships to enhance passenger and freight rail across the country. 
In this time of uncertainty in financial markets, the Railroad 
Rehabilitation and Improvement Financing Program (RRIF) can be an 
important tool for railroads (particularly regional and small 
railroads) and public agencies to access the financing needed for 
critical infrastructure and intermodal projects. We encourage the 
subcommittee to provide funding in fiscal year 2011 for the Rail Line 
Relocation and Improvement Program, the Next Generation Corridor Train 
Equipment Pool, and critical rail safety programs including deployment 
of positive train control and the related Nationwide Differential 
Global Positioning System which benefit both passenger rail and freight 
rail systems. In addition, funding for the Advanced Technology 
Locomotive Grant Pilot Program, created in section 1111 of the Energy 
Independence and Security Act of 2007, would be an important first step 
to assist the railroads and State and local governments in a transition 
to energy-efficient and environmentally friendly locomotives for 
freight and passenger railroad systems.
    The CONEG Governors also request funding for the Surface 
Transportation Board (STB) at least at the fiscal year 2010 level of 
$29 million, including specific funding for its responsibilities under 
PRIIA. Adequate funding is needed for the STB to carryout its expanded 
responsibilities for intercity passenger rail corridor service, and to 
provide critical oversight as the Nation's rail system assumes 
increasing importance for the timely, efficient, and environmentally 
sound movement of people and goods across the Nation.

                         COMMUNITY DEVELOPMENT

    The CONEG Governors urge the subcommittee to provide funding for 
the Community Development Block Grant (CDBG) program at least at the 
fiscal year 2010 level of $3.99 billion. The CDBG program enables 
States to provide funding for infrastructure improvement, housing 
programs, and projects that attract businesses to urban, suburban, 
exurban, and rural areas, creating new jobs and spurring economic 
development, growth and recovery in the Nation's low income and rural 
communities.

                               CONCLUSION

    In conclusion, the CONEG Governors urge the subcommittee to:
  --Increase the Federal aid highway obligation over the fiscal year 
        2010 appropriated level;
  --Increase public transit funding over the fiscal year 2010 
        appropriated levels, including full funding for the current 
        Formula and Bus Grants, the Capital Investment Grants, and the 
        Small Starts programs;
  --Fund Amtrak at least at the fiscal year 2011 authorized level of 
        $1.927 billion, including $1.025 billion in capital for 
        infrastructure and safety-related investments; $592 million for 
        operations; $288 million for debt service, and $22 million for 
        the Amtrak Office of Inspector General; and also provide 
        funding to initiate a sustained fleet modernization program;
  --Provide additional funding specifically for the Northeast Corridor 
        Infrastructure and Operations Advisory Commission;
  --Fund the Intercity Passenger Rail Service Corridor Assistance 
        Program for corridor planning and capital investment at least 
        at the current level of $2.5 billion;
  --Provide funding for national rail programs that are important 
        components of the evolving Federal-State-private sector 
        partnerships to enhance passenger and freight rail across the 
        country, such as the Rail Line Relocation and Improvement 
        Program, the Next Generation Corridor Train Equipment Pool, and 
        positive train control deployment and development of the 
        related Nationwide Differential Global Positioning System;
  --Provide funding for the Surface Transportation Board at least at 
        the fiscal year 2010 appropriated level; and
  --Provide at least $3.99 billion for the Community Development Block 
        Grant Program.
    The CONEG Governors thank the entire subcommittee for the 
opportunity to share these priorities and appreciate your consideration 
of these requests.
                                 ______
                                 
 Prepared Statement of the New York State Department of Transportation

    The New York State Department of Transportation (NYSDOT) 
appreciates the opportunity to present testimony on the fiscal year 
2011 transportation appropriations.
    Most people don't realize how vast New York's transportation system 
really is. Indeed, our State and local highway system supports more 
than 130 billion vehicle miles of travel annually. The total system in 
New York encompasses more than 114,000 miles of highway and more than 
17,400 bridges. New York also is home to a 3,565-mile intercity rail 
network over which more than 1.5 million passengers travel and more 
than 74 million tons of equipment, raw materials, manufactured goods 
and produce are shipped each year. New York also has 485 public and 
private aviation facilities through which more than 80 million people 
travel each year, and we have oversight of many of New York State's 
ports. Finally, we support more than 130 public transit operators, 
serving more than 8 million passengers each day.
    We must recognize that New York State and 47 other States in the 
Nation continue to face significant economic challenges. New York is 
currently facing a deficit of more than $9 billion in State fiscal year 
2010-2011 and a long-term structural deficit of $60.8 billion over the 
next 5 years.
    Since taking office in 2008, Governor Paterson has continually 
warned that New York State is in the midst of an unprecedented economic 
crisis. The losses in the financial, insurance and real estate sectors, 
which have been hit the hardest, have had a devastating impact on our 
State revenues. Prior to the current recession, financial services 
alone provided more than 20 percent of our State revenues. The 
Governor's actions have helped New York make substantial progress 
toward putting the State's fiscal house in order. That does not change 
the fact that the process of addressing a financial challenge of this 
magnitude has been, and remains, a long and difficult one.
    Just 1 year ago, Congress passed the American Reinvestment and 
Recovery Act (ARRA). The Recovery Act provided a one-time boost in 
funding to allow New York to create jobs to spur the economy and make 
progress on addressing transportation deficiencies. Here are some early 
results:
  --Eighty-two ARRA projects, valued at $80 million have been 
        completed.
  --Another 328 ARRA projects, valued at almost $803 million, are under 
        construction by the private sector throughout New York State.
  --Project selections were made collaboratively within the 
        Metropolitan Planning Organizations (MPOs) for 80 percent of 
        the projects.
  --Fifty-seven percent of the highway and bridge funds have gone to 
        locally sponsored projects. In fact, every county in New York 
        State has received Economic Recovery funding for transportation 
        projects.
  --Fifty-five percent of the projects administered under the program 
        are in economically distressed areas.
  --As of March 15, 2010, $146 million, or approximately 15 percent of 
        New York's Highway Recovery Act funding has been made available 
        to Disadvantaged and Minority- and Women-Owned Small 
        Businesses.
    The Federal Economic Recovery funding was certainly needed and we 
are very grateful to Congress for the opportunity it provided to invest 
in our transportation system. This infusion of Federal aid provided a 
one-time boost to our highway and transit funding.
    But if we are to maintain the benefits from this one-shot of 
investment and job creation provided by the Recovery Act, we need 
continued and increasing Federal and State investment in our 
transportation infrastructure to meet our growing system, mobility, 
infrastructure, safety, congestion and service needs.
    In developing the fiscal year 2011 transportation appropriations 
legislation, we ask that you consider and endorse the following:

     PROVIDE MODEST INCREASES TO TRANSPORTATION PROGRAMS AWAITING 
                            REAUTHORIZATION

    New York urges Congress to provide modest funding increases for 
those transportation programs that are awaiting reauthorization: 
highways, transit, highway safety and aviation.
    At a minimum, Congress should provide the level of funding proposed 
in the President's budget:
  --$41.3 billion for highways, which would provide an increase over 
        fiscal year 2010 levels ($41.1 billion).
  --$10.8 billion for Transit, a slight increase over fiscal year 2010 
        levels.
  --$3.5 billion for the Airport Improvement Program, sustaining the 
        level of funding the program has received since authorizing 
        legislation expired.
    New York is especially pleased that the President proposes a 32 
percent increase in the Next Generation Air Traffic Control System, 
providing $1.14 billion to upgrade the Nation's air traffic control 
system. Implementing state-of-the-art technology is crucial to the 
redesign of the severely congested New York City airspace.

                        FULLY FUND RAIL PROGRAMS

    New York urges Congress to provide rail no less than the amount 
authorized in Passenger Rail Investment and Improvement Act of 2008 
(PRIIA).
    The President's budget proposal calls for a $1 billion allocation 
for the High-Speed and Intercity Passenger Rail program. Although this 
amount is higher than the $350 million authorized in PRIIA, it is a 
reduction from last year's $2.5 billion. Amtrak funding would include 
$1.052 billion for capital grants, up from $1.002 this year, and $563 
million for operating grants, a continuation of the current level.
    The passage of PRIIA and ARRA provided the first significant level 
of Federal support for intercity passenger rail investment in 100 
years. The nationwide response has been overwhelming. Applications 
valued at $57 billion were submitted for $8 billion in ARRA funds last 
year. The $2.5 billion provided in fiscal year 2010 will help States 
continue to improve intercity passenger rail service. New York urges 
Congress to support the President's budget request for rail in fiscal 
year 2011.

              MAINTAIN EXISTING TRANSIT PROGRAM STRUCTURE

    New York urges Congress to maintain the existing Fixed Guideway 
Modernization program and Bus and Bus Discretionary program as separate 
transit programs until a full and productive discussion of the state-
of-good-repair of our transit system occurs in connection with surface 
transportation reauthorization.
    New York supports the Federal Transit Administration's (FTA) 
reinvigorated emphasis on ensuring that the Nation's transportation 
infrastructure reaches a state-of-good-repair. However, to achieve this 
goal, the administration, in its fiscal year 2011 budget, proposes to 
merge the separate formula-based section 5309 Fixed Guideway 
Modernization Program and the section 5309 discretionary-based Bus and 
Bus Facilities into a single new ``Bus and Rail State of Good Repair 
Program.'' While New York welcomes a full and productive conversation 
on a needs-based approach to addressing state-of-good-repair, the 
administration's proposal is too short on detail and FTA has not worked 
with transit stakeholders on a new process for apportioning program 
funds. As such, New York respectfully requests that Congress not 
address structural proposals through the appropriations process. We 
cannot afford any delay in our State's efforts to maintain and 
modernize our existing facilities while the details of such a new 
program are developed.
    NYSDOT thanks you for this opportunity to present testimony. We 
appreciate your dedication to and support of the Nation's 
transportation systems.
                                 ______
                                 
    Prepared Statement of the Illinois Department of Transportation

    Madam Chairman and members of the subcommittee, we appreciate the 
opportunity to submit testimony concerning the Federal fiscal year 2011 
U.S. Department of Transportation (U.S. DOT) appropriations on behalf 
of the Illinois Department of Transportation (IDOT) to the Senate 
Appropriations Subcommittee on Transportation and Housing and Urban 
Development, and Related Agencies. We thank Senator Murray and the 
members of the subcommittee for their past support of a strong Federal 
transportation program and for taking into consideration Illinois' 
unique needs.
    IDOT is responsible for the planning, construction, maintenance and 
coordination of highways, public transit, aviation, intercity passenger 
rail and freight rail systems in the State of Illinois. IDOT also 
administers traffic safety programs. Our recommendations for overall 
funding priorities and our requests for transportation funding for 
projects of special interest to Illinois are discussed below.

                  SAFETEA-LU REAUTHORIZATION/EXTENSION

    IDOT recognizes that Congress must vault over numerous hurdles 
before it can unite around a long-term surface transportation 
reauthorization bill that will enhance the quality of the Nation's 
infrastructure. While the HIRE Act provided an extension of the 
SAFETEA-LU programs through December 31, 2010, allowing Congress the 
time it needs to thoroughly craft a bill that will address the pressing 
issues of funding, capacity, mobility, safety, preservation, 
modernization, environment and other critical issues, we urge Congress 
to complete its work on a surface transportation reauthorization bill 
before the end of the HIRE Act extension. Much work has been 
accomplished by Congress but substantial work remains. We urge Congress 
to maintain the momentum it has achieved in developing a multiyear bill 
thus far and to continue with alacrity so that a bill can be enacted 
before another extension of SAFETEA-LU is required.
    We recognize that the Congress has to view issues from many 
different angles, many of them competing, and that the end result may 
differ from a particular State's perspective from time to time. All 
that being said, provided any extension is needed for any duration of 
time, IDOT supports ``clean'' extensions of SAFETEA-LU, i.e. without 
any re-structuring or re-programmatic distribution of existing formula 
or allocated programs. Extensions that modify only selected categories 
of SAFETEA-LU, ex post facto, not only unnecessarily set the stage for 
a zero-sum game scenario wherein States are thrust into disagreement, 
but it also disturbs the finely tuned State equity equilibrium that was 
reached upon SAFETEA-LU enactment.

            FULL RESTORATION OF END-OF-SAFETEA-LU RESCISSION

    The recently enacted HIRE Act restored $8.7 billion in contract 
authority to the States that was rescinded at the conclusion of Federal 
fiscal year 2009 due to a mandated provision in SAFETEA-LU. While IDOT 
commends Congress for this prudent legislative remedy we also urge the 
subcommittee to pursue additional suitable monetary off-sets that will 
make it possible to completely nullify the impact of the rescission by 
restoring, to the States, the $334 million in useable ceiling that was 
lost to them in Equity Bonus (EB) funding. The special obligation 
limitation associated with the EB special contract authority was not 
rescinded but instead made unusable by the rescission of contract 
authority. Even after the restoration of the rescinded contract 
authority, this special limitation will not become usable since current 
law requires that all contract authority made available as a result of 
the rescission restoration is subject to the overall obligation 
limitation provided by an appropriations act. Perhaps, additional 
obligation limitation could be made available, as it was in Federal 
fiscal year 2008, when $1 billion in ceiling was provided (to be used 
with a State's existing apportionment) for projects under the Bridge 
Program.
    As you are aware, within the rescission EB funding was withdrawn 
from 34 States (including Illinois). EB funds are more valuable to the 
States than contract authority (apportionments) because EB funds are 
either exempt from the obligation limitation or they come with attached 
obligation authority. Unfortunately, EB funds were rescinded at a time 
when the States were also being asked by Congress and the President to 
quickly spend funds provided to them from the American Recovery and 
Reinvestment Act of 2009 (ARRA) to invigorate the economy and preserve 
jobs. The need for transportation infrastructure projects to aid in the 
recovery of the national economy is no less critical now than it was 
February 17, 2009 when ARRA was enacted for that purpose. Full 
restoration of EB funds to the States will allow the States the 
opportunity to reinstate those funds with the programmed projects from 
which they were cut so that the economy can continue to rebound through 
transportation infrastructure improvements.

                                HIGHWAY

Highway Obligation Limitation
    IDOT urges the subcommittee to set the obligation limitation for 
highway and highway safety programs at the highest level that can be 
sustained by the Highway Trust Fund/Highway Account (HTF/HA). If 
another SAFETEA-LU extension is needed for Federal fiscal year 2011, 
IDOT supports a reasonable, yet healthy, incremental increase above the 
obligation limitation level of $41.8 billion enacted in Federal fiscal 
year 2010.
    IDOT supports preserving the SAFETEA-LU budgetary firewalls and 
guaranteed funding provisions of SAFETEA-LU, as do other transportation 
advocates such as the American Association of State Highway and 
Transportation Officials (AASHTO) and the American Road and 
Transportation Builders Association (ARTBA).
    IDOT is aware of the implications of supporting increased 
transportation funding when the long-term viability of the trust fund 
is in question. However, it is the responsibility of IDOT to secure the 
Federal funding that is needed to address the immediate highway and 
bridge project backlogs in Illinois and to preserve Illinois' 
transportation system for succeeding generations. Sufficient Federal 
dollars are needed to fund safer transportation systems, to address 
environmental concerns, to offset the erosion of the construction 
dollar, to address crippling levels of congestion/delay and to meet the 
transportation demands of the future. To quote the most recent findings 
of the 2008 Status of the Nation's Highways, Bridges, and Transit--
Conditions and Performance Report to Congress, ``Although investment in 
system rehabilitation has increased in constant dollar terms since 
1997, despite recent sharp increases in construction costs, the 
analysis . . . suggest that current highway investment levels are not 
sufficient to sustain the physical conditions of all parts of the 
highway system.''
Federal Fiscal Year 2011 Funding Requests for Meritorious Projects
    If the subcommittee finds the flexibility to fund meritorious 
projects in existing discretionary SAFETEA-LU categories or outside 
authorized categories, (Surface Transportation Priorities) IDOT 
requests funding for the following projects (noted throughout the 
testimony) for highway, Intelligent Transportation Systems (ITS), 
transit and rail funding:
  --Expansion of US 67.--IDOT requests $70 million for the pre-
        construction and construction activities for the expansion of 
        US 67 to a 4-lane divided expressway between Macomb and Alton, 
        Illinois.
  --Expansion of US 51.--IDOT requests $30 million for pre-construction 
        and construction activities for the expansion of US 51 to a 4-
        lane divided expressway between Decatur and Centralia, 
        Illinois.
  --Central to Central Avenue Connection.--IDOT requests $10 million 
        for a Central Avenue Bypass connecting Central through Bedford 
        Park in Southwest Chicago.
    Other IDOT highway priorities include:
    --$50.0 million for additional lanes on I-80 from US 30 to US 45 in 
Will County;
    --$58.5 million for I-57 at IL 50 Interchange and ICG Railroad in 
Bradley;
    --$46.8 million for additional lanes on US 30 (IL 31 to US 34) in 
Kane/Kendall County;
    --$33.0 million for highway/railroad grade separation at IL 38 & 
Kautz Road; and
    --$16.3 million for reconstruction of US 45 (LaGrange Rd) from 
131st Street to 179th Street.
    Other IDOT Intelligent Transportation System Priorities:
    --$1.5 million for a prototype Automated License Plate Reader for 
commercial vehicle enforcement; and
    --$9.0 million for IntelliDrive in Illinois (fiber and wireless 
technology)--Readying the Rt. 66 Corridor.

                                TRANSIT

Transit Authorization
    IDOT urges the subcommittee to fund transit programs at the highest 
level that can be sustained by the Highway Trust Fund/Transit Account 
or, at a minimum, a reasonable, yet healthy, incremental increase above 
the $10.7 billion obligation limitation level enacted in Federal fiscal 
year 2010.
  --Bus and Bus Facilities.--IDOT and the Illinois Public 
        Transportation Association jointly request a Federal earmark of 
        $48.9 million ($8.7 million for downstate bus, $25.1 million 
        for downstate facilities and $15 million for Chicago Transit 
        Authority (CTA)/Suburban Bus Division of RTA (Pace) buses in 
        northeastern Illinois) in Federal fiscal year 2011 section 5309 
        bus capital funds.
    The request will provide $8.7 million for downstate Illinois 
transit systems to purchase up to 46 buses and paratransit vehicles to 
replace over-age vehicles and to comply with Federal mandates under the 
Americans with Disabilities Act (ADA). All of the vehicles scheduled 
for replacement are at or well beyond their design life. The request 
will also provide $25.1 million to undertake engineering, land 
acquisition or construction for three maintenance facilities and five 
transfer facilities that will enhance efficient operation of transit 
services.
    Illinois transit systems need discretionary bus capital funds. The 
funding provided under SAFETEA-LU has been inadequate to meet Illinois' 
bus capital needs. IDOT believes that supplemental discretionary 
funding is needed, and justified, to support Illinois' extensive 
transit system. Under SAFETEA-LU, Illinois has received less than 2 
percent of the combined High Priority Project (HPP) category and 
discretionary appropriations made available for bus and bus facilities.
Formula Grants
    IDOT urges the subcommittee to set appropriations for transit 
formula grant programs at levels that will allow full use of the 
anticipated Mass Transit Account revenues. IDOT also supports the 
continued use of general funds to supplement transit needs. In 
Illinois, Northeastern Illinois Urbanized Area formula funds (section 
5307) are distributed to the Regional Transportation Authority and its 
three service boards which provide approximately 600 million passenger 
trips per year. Downstate urbanized formula funds are distributed to 14 
urbanized areas which provide nearly 33 million passenger trips per 
year.
    The Rural and Small Urban formula funds (section 5311) play a vital 
role in meeting mobility needs in Illinois' small cities and rural 
areas. IDOT urges the subcommittee to continue to fund section 5311 at 
a healthy increment above the Federal fiscal year 2010 funding level. 
From the section 5311 funding increases already authorized in SAFETEA-
LU, Illinois was able to expand public transportation service into 
counties not currently served. Due to the decrease in Federal and local 
funding resources for public transportation, existing statewide public 
transportation service levels could be jeopardized unless there is an 
overall increase in funding above that enacted in SAFETEA-LU.
State of Good Repair--CTA/Metra Commuter Rail (Metra)/Pace
    IDOT supports the increased focus on the state of good repair needs 
of the Nation's transit systems. State of good repair is a high 
priority for all systems in the State of Illinois. In northeast 
Illinois there is a $2 billion annual need to keep their assets in a 
state of good repair and there is a $91 million annual need for 
downstate systems. A recent Federal Transit Administration study of the 
seven largest transit agencies in the country estimated that more than 
one-third of the study agency assets were in either marginal or poor 
condition. Additional resources should be directed toward preserving 
our existing assets. This will minimize future impacts on maintenance 
costs and improve safety and reliability to the entire system.
Operating Assistance
    IDOT supports the continued flexible use of Federal transit capital 
funding for day-to-day operations. However, during these extraordinary 
economic times when local funding resources for public transportation 
have suffered, an increase or emergency Federal funding for public 
transportation is needed to supplement existing Federal transit 
funding. These emergency funds should be separate and distinct from 
continuing needs. This funding would ensure that vital services are 
continued at current service levels.
New Systems and Extensions--CTA/Metra
    IDOT supports continued planning and engineering funding for 
existing CTA/Metra projects. Public transportation in northeastern 
Illinois has benefited over the years from bipartisan, and regional 
consensus; and, therefore, there is no particular priority for the 
ongoing projects. However, since Metra's Union Pacific Northwest Line 
and its Union Pacific West Line have completed their alternatives 
analysis studies and are ready for preliminary engineering, IDOT is 
supportive of Metra's request of $20 million for upgrades for each 
line.

                                  RAIL

Amtrak Appropriation
    IDOT supports Amtrak's request of $2.196 billion in funding from 
general funds for Federal fiscal year 2011 to cover capital costs 
($1.018 billion), operating costs ($592 million), debt service costs 
($305 million) and ADA costs ($281 million). Amtrak needs the full 
amount of their request to maintain existing nationwide operations. In 
addition, IDOT supports Amtrak's Federal fiscal year 2011 capital 
funding request for fleet planning which will require an investment of 
about $446 million. Amtrak needs to replace aging, obsolescent and 
increasingly costly rolling stock and has developed a procurement model 
to replace the whole of their existing fleet by 2040 at a cost of $23 
billion.
    In Illinois, Amtrak operates 58 trains serving approximately 4.4 
million passengers annually within the Nation's passenger rail system 
that served 27 million passengers in Federal fiscal year 2009. It is 
noteworthy that Chicago's Union Station, a primary hub for Amtrak 
intercity service and the fourth busiest station in the Amtrak system, 
had boardings/alightings totaling over 3 million persons. Illinois 
subsidizes 28 State-sponsored trains which provide service in four 
corridors: Chicago-Milwaukee; Chicago-Springfield-St. Louis; Chicago-
Galesburg-Quincy; and, Chicago-Champaign-Carbondale. Amtrak service in 
key travel corridors is an important component of Illinois' multimodal 
transportation network and continued Federal capital and operating 
support is needed.
  --CREATE Railroad Grand Crossing Connection.--IDOT requests $25 
        million in Federal fiscal year 2011 for design and construction 
        of a railroad connection between the Canadian National and 
        Norfolk Southern Railroads at 75th Street in Chicago--also 
        known as Grand Crossing.
High-Speed Rail
    IDOT supports the administration's $1 billion request for the High-
Speed and Intercity Passenger Rail program for Federal fiscal year 
2011. The $8 billion in ARRA high-speed and intercity passenger grant 
awards provided a great first step in the building of a national 
system; however, a continued Federal commitment and supplemental 
funding is crucial to accelerate the development of a true national 
intercity passenger high-speed intercity rail system. IDOT also urges 
the subcommittee to devote special attention to the development of the 
next generation of intercity passenger rail equipment. Providing 
funding for next generation intercity rail equipment creates and 
preserves solid employment for skilled American workers--employment 
that can be truly seen as ``green jobs.'' IDOT also urges the 
subcommittee to fully fund the Passenger Rail Investment and 
Improvement Act of 2008 (PRIIA) at its authorized levels. Likewise, 
IDOT supports the President's Vision For High-Speed Rail in America 
strategic plan released last April which promises to build a world-
class network of high-speed passenger rail corridors. We believe that 
the funding provided under ARRA, PRIIA and in conjunction with the 
President's strategic plan will serve the Nation in making reasonable 
investments in establishing a solid foundation for high-speed rail from 
which the system can thrive and expand.

                                AVIATION

Airport Improvement Program Obligation Limitation
    IDOT supports a Federal fiscal year 2011 Airport Improvement 
Program (AIP) obligation limitation of $4.1 billion, the same funding 
level in the House-passed and Senate-passed reauthorization bill. These 
amounts are supported by the American Association of Airport Executives 
and the National Association of State Aviation Officials.
    IDOT continues to support a multiyear reauthorization bill with AIP 
funding levels that will allow full use of the anticipated Airport and 
Airway Trust Fund (AATF) revenues. In addition, IDOT supports the 
continuation of the budgetary guarantees of AIR-21 and VISION-100 
protecting the use of the AATF revenues. Both the House and Senate have 
passed long-term authorization bills. However, it is essential that 
Congress enact legislation to reauthorize the AIP program. 
Reauthorizing the AIP program secures Federal funds for Federal fiscal 
year 2010 and beyond so that the States can support the future 
development of their State aviation infrastructure programs.
    IDOT urges Congress to reauthorize the programs of the Federal 
Aviation Administration before, or soon thereafter the recent extension 
expires on April 30, 2010. Adequate AIP funding remains especially 
important for small, non-hub, non-primary, general aviation and 
reliever airports. While most large/medium hub airports have been able 
to raise substantial amounts of funding with Passenger Facility 
Charges, the smaller airports are very dependent on the Federal AIP. 
Airports must continue to make infrastructure improvements to safely 
and efficiently serve existing air traffic and the rapidly growing 
passenger demand. Lower AIP obligation levels translate into less 
Federal funds for airport projects, thereby exacerbating the existing 
capital project funding shortfall.
    Essential Air Service Program (EAS).--IDOT supports an EAS program 
funded at a level that will enable the continuation of service at all 
current Illinois EAS points. Several Illinois airports, Decatur, 
Marion/Herrin and Quincy, currently receive annual EAS subsidies.
    Small Community Air Service Program.--IDOT supports funding for the 
Small Community Air Service Development Program in Federal fiscal year 
2011, at a level no less than $35 million. Illinois airports have 
received funding from this program in the past.
Other Non-modal IDOT Priorities
  --Height Modernization.--IDOT requests $1.2 million to continue a 
        newly established Height Modernization program in Illinois. 
        This project solicitation will be requested through the 
        Appropriations Subcommittee on Science, State, Justice, 
        Commerce and Related Agencies.
    This concludes my testimony. I understand the difficulty you face 
trying to provide needed increases in transportation funding. However, 
an adequate and well-maintained transportation system is critical to 
the Nation's economic prosperity and future growth. Your ongoing 
recognition of that fact and your support for the Nation's 
transportation needs are much appreciated. Again, thank you for the 
opportunity to discuss Illinois' Federal transportation funding 
concerns.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium

    This statement focuses on the Department of Housing and Urban 
Development (HUD) and the Department of Transportation, Federal Highway 
Administration--Office of Civil Rights (FHWA-OCR).
    On behalf of this Nation's 36 Tribal Colleges and Universities 
(TCUs), which compose the American Indian Higher Education Consortium 
(AIHEC), thank you for the opportunity to express our views and 
recommendations regarding the Department of Housing and Urban 
Development's University Partnership Program for Tribal Colleges and 
Universities for fiscal year 2011.

                          SUMMARY OF REQUESTS

    Department of Housing and Urban Development (HUD).--Since fiscal 
year 2001, a TCU initiative has been funded and administered under the 
HUD-University Partnership Program. This competitive grants program 
enables Tribal Colleges and Universities to build, expand, renovate, 
and equip their facilities that are available to, and used by, their 
respective reservation communities. We strongly urge the subcommittee 
to reject the recommendation included in the President's fiscal year 
2011 budget request to eliminate four separate HUD university and 
community assistance programs, each addressing very different community 
needs, and establish a homogenized University Community Fund. If all 
funds are competed from a single source, there is no assurance that 
TCUs will be served equitably, and the likelihood is that they will not 
be. We further request that the subcommittee support funding for the 
TCU Program, at a minimum of $5.435 million; the same level of funding 
appropriated for this separate program in fiscal year 2010. 
Additionally, we request that language be included to permit that a 
small portion of the funds appropriated may be used to provide much 
needed technical assistance to institutions eligible to participate in 
this competitive grants program.
    Department of Transportation, Federal Highway Administration--
Office of Civil Rights (FHWA-OCR).--Fort Peck Community College and 
Salish Kootenai College, both located in Montana, and members of the 
American Indian Higher Education Consortium, conduct Highway 
Construction Training Programs funded by On the Job Training/Support 
Services provided by FHWA-OCR. We urge the subcommittee to direct the 
FHWA-OCR to continue its current rate of investment in the vital 
programs offered by these TCUs that is designed to increase the number 
of American Indians, including women, that are part of the highway 
construction workforce in Indian Country.

                               BACKGROUND

    Tribal Colleges and Universities are accredited by independent, 
regional accreditation agencies and like all institutions of higher 
education, must undergo stringent performance reviews on a periodic 
basis to retain their accreditation status. In addition to college 
level programming, TCUs provide essential high school completion (GED), 
basic remediation, job training, college preparatory courses, and adult 
education programs. TCUs fulfill additional roles within their 
respective reservation communities functioning as community centers, 
libraries, tribal archives, career and business centers, economic 
development centers, public meeting places, and child and elder care 
centers. Each TCU is committed to improving the lives of its students 
through higher education and to moving American Indians toward self-
sufficiency.
    Tribal Colleges and Universities provide access to higher education 
for American Indians and others living in some of the Nation's most 
rural and economically depressed areas. According to 2000 decennial 
census data, the annual per capita income of the U.S. population was 
$21,587. In contrast, the annual per capita income of Native Americans 
was $12,893 or about 40 percent less. In addition to serving their 
student populations, TCUs offer a variety of much needed community 
outreach programs.
    These institutions, chartered by their respective tribal 
governments, were established in response to the recognition by tribal 
leaders that local, culturally based institutions are best suited to 
help American Indians succeed in higher education. TCUs effectively 
blend traditional teachings with conventional postsecondary curricula. 
They have developed innovative ways to address the needs of tribal 
populations and are overcoming long-standing barriers to success in 
higher education for American Indians. Since the first TCU was 
established on the Navajo Nation in 1968, these vital institutions have 
come to represent the most significant development in the history of 
American Indian higher education, providing access to, and promoting 
achievement among, students who may otherwise never have known 
postsecondary education success.
    Despite their remarkable accomplishments, TCUs remain the most 
poorly funded institutions of higher education in the country. Chronic 
lack of adequate funds remains the most significant barrier to their 
expanded success. Funding for the day-to-day operating budgets of 26 
reservation-based TCUs is provided under title I of the Tribally 
Controlled College or University Assistance Act (Public Law 95-471). 
Currently, the institutional operating budgets of these colleges are 
funded at $5,764 per Indian student--only enrolled members of a Federal 
recognized tribe or the biological child of a tribal member may be 
counted as Indian students for the purpose of determining an 
institution's operations funding level. Because TCUs are located on 
Federal trust land, States have no obligation to fund them--not even 
for the non-Indian State-resident students who account for 
approximately 20 percent of TCU enrollments. Yet, if these same 
students attended any other public institution in the State, the State 
would provide basic operating funds to the institution. While 
mainstream public institutions have had a foundation of stable State 
tax-based support, TCUs must rely on annual Federal appropriations for 
their day-to-day institutional operating budgets. In the almost 30 
years since the Tribal College Act was initially funded, these 
reservation-based colleges have never received the authorized funding 
level for their institutional operations. In fact, they have lost 
ground. If you factor in inflation, the buying power of the current 
appropriation is $965 less per Indian student than it was when it was 
initially funded almost 30 years ago, when the appropriation was $2,831 
per Indian student. This is not simply a matter of appropriations 
falling short of an authorization. It effectively impedes the TCUs from 
having the resources necessary to provide educational services afforded 
students at State-funded institutions of higher education.
    Inadequate funding has left many TCUs with no choice but to 
continue to operate under severely distressed conditions. The need 
remains urgent for construction, renovation, improvement, and 
maintenance of key TCU facilities, such as basic and advanced science 
laboratories, computer labs, and increasingly important student 
housing, day care centers, and community service facilities. Although 
the situation has improved dramatically at many TCUs in the past 
several years, some TCUs still operate--at least partially--in donated 
and temporary buildings. Few have dormitories, even fewer have student 
health centers and only one TCU has a science research laboratory.
    As a result of more than 200 years of Federal Indian policy--
including policies of termination, assimilation and relocation--many 
reservation residents live in conditions of poverty comparable to that 
found in Third World nations. Through the efforts of TCUs, American 
Indian communities are availing themselves of resources needed to 
foster responsible, productive, and self-reliant citizens.

                             JUSTIFICATIONS

Department of Housing and Urban Development
    The HUD-TCU program, funded and administered under the Department's 
University Partnership Program, is a competitive grants program that 
enables TCUs to expand their roles and efficacy in addressing 
development and revitalization needs in their respective communities. 
No academic or student support projects are funded through this 
program; rather, funding is available only for community based outreach 
and service programs at TCUs. Through this program, some Tribal 
Colleges have been able to build or enhance child care centers and 
social service offices; help revitalize tribal housing; establish and 
expand small business development; and enhance vitally-needed library 
services. Unfortunately, not all of the TCUs have yet to benefit from 
this program. The program staff at the Department has no budget to 
provide technical assistance with regard to this program. If a small 
portion of the appropriated funds were to be available for program 
staff to conduct workshops and site visits, more of the TCUs and their 
respective communities could benefit from this vital opportunity. We 
strongly urge the subcommittee to support a TCU specific program funded 
at a minimum of $5.435 million, and to include language that will allow 
a portion of these funds to be used to provide technical assistance to 
TCUs, to help ensure that much needed community services and programs 
are expanded and continued in the communities served by the Nation's 
Tribal Colleges and Universities.
Department of Transportation, FWHA--Office of Civil Rights
    Since 1999, two of the Montana-based tribal colleges: Fort Peck 
Community College and Salish Kootenai College have conducted highway 
construction training programs with funds from FHWA-OCR's On the Job 
Training/Support Services. In 2006, FHWA-OCR recognized the strength of 
its investment and success of these programs by presenting Salish 
Kootenai College with the ``Minority Institutions Higher Education 
Achievement Award''. We urge the subcommittee to include report 
language directing the FHWA-OCR to continue its current rate of 
investment in the vital programs offered by these TCUs designed to 
increase the number of American Indians, including women, that are part 
of the highway construction workforce in Indian Country.

                  PRESIDENT'S FISCAL YEAR 2011 BUDGET

    The President's fiscal year 2011 budget request proposes 
eliminating four existing separate university and community assistance 
programs that serve unique constituencies and melding the funds into a 
single $25 million University Community Fund, as part of the larger 
Community Development Block Grant (CDBG). We request that the 
subcommittee continue to recognize and appropriate separate funding for 
the Tribal Colleges and Universities Program, and the other affected 
programs, namely: Historically Black Colleges and Universities; 
Hispanic Serving Institutions Assisting Communities; and Alaska Native 
and Native Hawaiian Serving Institutions Assisting Communities, to be 
allocated competitively within the separate programs.

                               CONCLUSION

    We respectfully request that in fiscal year 2011, Congress maintain 
the current level of funding for a separate Tribal Colleges and 
Universities HUD program and provide for technical assistance, to help 
these vital institutions improve and expand their facilities to better 
serve their students and communities. Additionally, we ask Congress to 
direct the Department of Transportation to maintain the current level 
of funding for our two TCUs that conduct highway construction training 
programs to increase quality jobs for American Indians living in Indian 
Country. Thank you for your continued support of Tribal Colleges and 
Universities and for your consideration of our fiscal year 2011 HUD 
appropriations requests.
                                 ______
                                 
          Prepared Statement of the City of Maricopa, Arizona

    Chairwoman Murray, Ranking Member Bond, and distinguished members 
of the subcommittee, thank you for allowing me to testify on behalf of 
the city of Maricopa in support of $1.8 million for environmental 
studies through the Federal Highway Administration's (FHWA) Public 
Lands Highway--Discretionary (PLHD) program for a grade separation 
along State Route 347 in Maricopa, Arizona.
    History.--Maricopa is a small but thriving community 35 miles south 
of Phoenix that is between the Gila River Indian Community and the Ak-
Chin Indian Community. Incorporated in 2003 with a population of 
approximately 1,000 people, Maricopa is now a burgeoning community of 
more than 40,000 and growing at the rate of approximately 100 people 
per month. SR-347 is Maricopa's ``Main Street'' and is the area's 
primary north-south corridor and most direct route to the Phoenix area. 
Originally paved in the 1950's as a two-lane highway, the roadway was 
upgraded to a five-lane facility in the early 1990s, when the 
population of Maricopa and surrounding communities was less than 1,000 
people. The Union Pacific Rail Road's (UPRR) Sunset Line crosses SR-347 
in the center of the Maricopa community. The Sunset Line was a single 
track but has just recently been double tracked with plans for a third 
track. The Sunset Line is one of UPRR's key transcontinental freight 
corridors, and currently over 50 trains per day pass through the UPRR/
SR-347 intersection at speeds in excess of 50 mph.
    Traffic Levels.--Traffic counts taken in February 2009 show a daily 
traffic count of 33,547 vehicles, including 168 school buses carrying 
an estimated 2,856 children across this rail line during morning and 
afternoon peak hour periods. Also, on average 30 pedestrians cross the 
tracks at peak times, many of them students walking to and from 
Maricopa High School. Additionally, a majority of patrons of Harrah's 
Ak-Chin Casino, located just a few miles south of Maricopa, cross the 
UPRR line on SR-347 in both personal vehicles and on charter buses.
    Accident History.--Crash statistics documented in our 2007 
feasibility study show that SR-347 at the UPRR Line had 21 accidents 
including one fatality in the previous 3 years. Federal Railroad 
Administration's (FRA) most recent 10-year accident statistics for all 
of Pinal County show an average of 3 fatalities a year out of 30 
incidents per year county-wide. In Maricopa, FRA statistics show five 
fatalities in the past 20 years at crossing 741343C (SR-347 and UPRR) 
including a toddler trapped in a truck stalled on the crossing in June 
2000. Life long residents remember this tragedy and never want to see 
it repeated.
    Congestion.--Each passing train stops traffic on SR-347 for several 
minutes resulting in delays and congestion. In addition, six Amtrak 
trains per week make scheduled stops at the Maricopa Station, typically 
taking 5 to 10 minutes to load and unload passengers and baggage. The 
Amtrak loading platform is located approximately 120 feet east of the 
SR-347 crossing; since the Amtrak trains normally extend through the 
intersection, these also cause long back-ups and congestion.
    Emergency Access.--To many people in Maricopa, the SR-347 crossing 
at the UPRR is literally the only way across the railroad tracks. Due 
to the location of fire stations and the restriction of only having one 
police station in the city, this means emergency vehicles also commonly 
have to wait for the passing of a train before they are able to 
continue responding to a code response. Maricopa is concerned about the 
SR-347/UPRR crossing as a hindrance to providing proper public safety 
responses.
    Hazardous Materials.--With the volume and type of freight carried 
along the UPRR Sunset Line through the middle of downtown Maricopa, 
there is an ever-present threat of a hazardous materials incident. 
Spills of this nature can take upwards of 12 to 24 hours to resolve. 
The shutdown of this vital crossing, leaving residents unsure of 
alternate routes and hindering emergency service response as well as 
citizens commuting to and from work, would cause serious repercussions 
for the community. Traffic congestion could also delay proper response 
of hazardous materials teams.
    Current Status.--A grade separation Feasibility Report/
Environmental Overview (FR/EO) was completed in March 2007. The purpose 
of the investigation was to develop and evaluate various alternatives 
for achieving the grade separation. The FR/EO presents five options for 
achieving the project goals, and evaluates each based on a range of 
criteria including cost, effectiveness, and community impacts.
    Since March 2007, no progress has been made on this project. Steps 
left to be taken include the completion of a Design Concept Report and 
an Environmental Impact Statement and engineering design. Once project 
development is completed, bidding and construction can proceed. The 
city of Maricopa strongly supports a congressional appropriation of 
$1.8 million for environmental studies with regard to the SR-347 grade 
separation project in the fiscal year 2011 Transportation and Housing 
and Urban Development and Related Agencies Appropriations bill.
    To date, the city of Maricopa has invested $500,000 in the project 
and is expected to add more to this total. Additionally, the Arizona 
Department of Transportation has committed $400,000 to this project 
thus far. To keep this project on schedule, Federal funding is 
necessary and we strongly support the subcommittee allocating $1.8 
million to complete the environmental studies for this project.
    Justification for Dedication of Federal Funds.--SR-347 is the 
primary access to one of the fastest growing areas in the country, 
carries pass-through traffic to San Diego and Mexico and serves as a 
key economic corridor for the Arizona region. The UPRR Sunset Route is 
one of the busiest transcontinental rail lines in the United States, 
transferring freight between the Port of Los Angeles, California and El 
Paso, Texas. We have two significant interstate transportation routes 
intersecting within a local municipality, burdening the city and 
placing residents at a heightened risk. Federal action to remedy this 
is warranted given the gravity of the situation, the scale of the 
solution required and the scarcity of alternative options.
    The speed of regional growth has outpaced the ability of local and 
State authorities to provide for the health, safety and welfare of 
travelers crossing the UPRR line on SR-347. Once safety concerns are 
identified, it is imperative to seek a solution to this problem at all 
levels. The transcontinental nature of the UPRR rail line is a national 
issue. The housing boom that created Maricopa and brought residents 
from all across the country is a national phenomenon. The reality that 
a significant and possibly fatal safety issue exists today should drive 
away any notion that this is anything less than a national issue. A 
safety issue as this, with emergency needs, should be addressed before 
conditions worsen and additional accidents or fatalities take place. We 
should solve this problem before another tragedy takes place and this 
is why we are urgently asking Congress to address this problem now 
before another fatal accident takes place.
    Conclusion.--The UPRR crossing at SR-347 is one of the most 
dangerous rail crossings in Arizona. Because it bisects the fastest 
growing area of Arizona, traffic is congested, public safety is 
compromised, and children are at risk because of its proximity to a 
high school. The only way to resolve this dangerous situation is an 
over or under pass at the current grade crossing. Therefore, again, the 
city of Maricopa strongly supports $1.8 million in funding through the 
PHLD program under the Federal Highway Administration in the fiscal 
year 2011 Transportation and Housing and Urban Development and Related 
Agencies Appropriations bill for the completion of the environmental 
studies for State Route 347 grade separation project thus keeping it on 
an optimal schedule for completion.
    Finally, it is important to note that our Senators--Kyl and 
McCain--do NOT request earmarks and, therefore, we will not receive any 
funding in the Senate. However, we are confident that with our support 
in the House from Congressmen Grijalva and Pastor that this project 
will be a conferenceable line-item and we hope you will support this 
important request. Not one more life should be sacrificed at this 
dangerous crossing.
    Thank you for your time and attention to this important matter.
                                 ______
                                 
         Prepared Statement of the Cook Inlet Housing Authority

    My name is Carol Gore, and I currently serve as the president and 
CEO of Cook Inlet Housing Authority. On behalf of Cook Inlet Housing 
Authority, I appreciate this opportunity to submit testimony to the 
Senate Appropriations Subcommittee for Transportation, Housing and 
Urban Development regarding the Department of Housing and Urban 
Development's proposed fiscal year 2011 funding allocation for the 
Indian Housing Block Grant program.
    Cook Inlet Housing Authority is headquartered in Anchorage, Alaska. 
It is the Tribally Designated Housing Entity for Cook Inlet Region, 
Inc. and has a service area of 38,000 square miles, covering much of 
south-central Alaska. According to Census 2000 figures, Cook Inlet 
Housing Authority's service area contains a Native American population 
of approximately 36,000 individuals, roughly 30 percent of Alaska's 
Native American population. We estimate that more than one-half of the 
Native American families living within Cook Inlet Housing Authority's 
service area are living at or below HUD-defined low-income levels.
    The Indian Housing Block Grant program, created by the Native 
American Housing Assistance and Self-Determination Act, or ``NAHASDA,'' 
is Cook Inlet Housing Authority's primary source of funding for 
affordable housing and housing-related activities for low-income Native 
American families. The program enables Cook Inlet Housing Authority to 
develop and operate elder and family rental housing, provide affordable 
home loans and down payment assistance, deliver housing readiness case 
management, issue tenant-based and project-based rental assistance 
vouchers, and provide weatherization upgrades. Cook Inlet Housing 
Authority also works with a number of local providers to combat 
homelessness and provide supportive housing for individuals with 
special needs. This leveraging of local capacity provides a non-
duplicative mechanism to use existing expertise and programs to enhance 
homelessness and supportive housing opportunities for low-income Native 
American families living within our region.
    The Indian Housing Block Grant is critical for another, more 
technical and fundamental reason. Congress intended for NAHASDA 
recipients to use their Indian Housing Block Grants to leverage 
additional funding for affordable housing in Indian country. By using 
its Indian Housing Block Grant to secure investment from other sources, 
Cook Inlet Housing Authority has been able to bring significant 
additional resources to serve the affordable housing needs of all 
tribal members living within our region without segregation by income 
or location. We describe this leveraging model as providing our region 
with the benefits of living within a Village where all people and 
resources are valued. By leveraging our NAHASDA funds, we are 
benefiting our people and community in a way that celebrates and 
welcomes our Native American population providing them quality homes in 
a variety of neighborhoods. Simultaneously, our leveraging model has 
enabled us to serve more AIAN clients than we could otherwise serve if 
we developed housing strictly with NAHASDA funds on a house-by-house 
basis. NAHASDA encourages leveraging. We thank Congress for the wisdom 
and guidance to provide this opportunity to bring private capital and 
funding to our Indian housing. Leveraging is part of the reason why 
NAHASDA has been a resounding success throughout the United States.
    However, despite the successes and innovations NAHASDA has spawned, 
housing conditions in Indian country are far inferior to those of the 
general U.S. population. According to the 2000 U.S. Census, nearly 12 
percent of Native American households lack plumbing, compared to 1.2 
percent of the general U.S. population. Indian households are nearly 
three times more likely to be severely overcrowded. We are making good 
progress, but our success has only just now begun to reach the private 
banking industry and other grant funding sources. Absent NAHASDA funds 
for leveraging, we have little chance of continuing our progress. With 
NAHASDA, we are perceived to have ``skin in the game'' by other 
funders. We are investing in our people and our communities--often 
bringing $1 to $9 from other sources for every NAHASDA dollar.
    It is for precisely these reasons--the success of NAHASDA and the 
disparity in housing conditions between Native American communities and 
the general U.S. population--that Cook Inlet Housing Authority is so 
confused by the administration's 2011 budget request for the Indian 
Housing Block Grant. The President's 2011 budget seeks $580 million for 
the Indian Housing Block Grant, an amount 17 percent less than the 
level enacted for 2010 and the lowest single-year funding amount for 
the IHBG since the Native American Housing Assistance and Self-
Determination Act became law in 1996.
    Why a successful program that effectively addresses the housing 
needs of an extremely underserved population should bear a 
disproportionate burden when it comes time to trim the Federal budget 
is simply baffling. Cook Inlet Housing Authority has heard 
unsubstantiated assertions that there is a lack of capacity in Indian 
country that prevents the timely expenditure of Indian Housing Block 
Grant funds. To the contrary, it is our understanding that NAHASDA 
recipients have clearly demonstrated their capacity to obligate and 
expend American Recovery and Reinvestment Act funding in accordance 
with Federal requirements.
    It is true that some NAHASDA recipients may hold on to their annual 
Indian Housing Block Grant funding for limited periods, but they do so 
for legitimate reasons. Because of the nature of the housing industry 
in cold weather climates, construction seasons may be limited. In 
Alaska, we can miss an entire construction season because the water 
transportation system is either too low or doesn't thaw in time for 
delivery. Moreover, small tribes receiving minimum NAHASDA allocation 
sometimes preserve their Indian Housing Block Grant funding over 
multiple years until they have pooled enough resources to engage in 
meaningful and strategic housing activities. This practice is expressly 
permitted by NAHASDA.
    It is also confusing that the administration's budget request 
proposes such a substantial cut to the Indian Housing Block Grant only 
months after Congress implicitly recognized the efficacy of NAHASDA by 
providing millions of dollars for the Indian Housing Block Grant 
through the American Recovery and Reinvestment Act. Had the Recovery 
Act funding been described to tribes and tribally designated housing 
entities as an advance rather than a supplement intended to address 
critical housing shortages in Indian country while stimulating the 
American economy, Cook Inlet Housing Authority would have vigorously 
opposed Recovery Act NAHASDA funding. Such an ``advance'' followed by a 
funding cut would require tribes and housing organizations to hire a 
significant number of new employees in order to spend Recovery Act 
funding, only to lay off those very workers and additional staff once 
Recovery Act funding is spent. This was clearly not the intent of 
Congress.
    Because NAHASDA is an effective program enabling tribes and their 
designated housing entities to address the severe shortage of safe, 
affordable housing in Indian country, Cook Inlet Housing Authority 
respectfully requests that Congress fund the Indian Housing Block Grant 
at $875 million for 2011. This funding level will restore Indian 
Housing Block Grant funding to the fiscal year 2010 funding level and 
provide an additional $175 million to address inflationary forces and 
cost increases that were not taken into consideration between 1996, 
when NAHASDA was passed, and 2010.
    On behalf of Cook Inlet Housing Authority, thank you for the 
opportunity to provide testimony opposing the administration's proposed 
cuts to the Indian Housing Block Grant and supporting an increase in 
the amount of $175 million for that program.
                                 ______
                                 
    Prepared Statement of the Ely Shoshone Tribe Housing Department

    It has been brought to my attention that the fiscal year 2011 
budget proposed by President Obama includes unprecedented cuts to 
funding under the Native American Housing and Self-Determination Act 
(NAHASDA). As you may be aware, housing conditions and the availability 
of housing in Indian Country fall far below those of the general U.S. 
population. For example, according to the 2000 U.S. census, nearly 12 
percent of Native American households lack plumbing compared to 1.2 
percent of the general U.S. population. Further, Indian households are 
nearly three times more likely to be severely overcrowded.
    Since the inception in 1996 and funding and implementation in 1998, 
NAHASDA has been the cornerstone of tribal housing programs. The 
President's budget proposes cutting funding for the Indian Housing 
Block Grant (IHBG) to $580 million, which is nearly 18 percent lower 
that the fiscal year 2010 funding level and would be the lowest single-
year funding ever allocated to IHBG since NAHASDA was enacted. The 
proposed budget does not include sufficient resources for the Indian 
Community Development Block Grant (ICDBG) and completely eliminate the 
much-needed Training and Technical Assistance (T/TA) that tribes need 
to plan, implement and manage their housing programs. I urge you to 
support increased funding for the IHBG at $875 million, the ICDBG at 
$100 million, and to reinstate the allocation for T/TA at $4.8 million.
    Thank you in advance and consideration.
                                 ______
                                 
  Prepared Statement of the Fond du Lac Band of Lake Superior Chippewa

    Mr. Chairman, members of the subcommittee, I am Karen R. Diver, 
chairwoman of the Fond du Lac Band of Lake Superior Chippewa. On behalf 
of the band, I would like to thank you for this opportunity to submit 
testimony on fiscal year 2011 appropriations relating to the United 
States Department of Housing and Urban Development. We submit this 
testimony to urge Congress to increase the Federal funding levels for 
Indian housing programs that are provided through the Department of 
Housing and Urban Development.
    Specifically, we ask that Congress appropriate $875 million for the 
Native American Housing Block Grant Program (NAHASDA), and increase all 
other HUD programs serving Native Americans. Although the NAHASDA 
program is the principal source of Federal financial assistance for 
housing on Indian reservations, the President's proposed fiscal year 
2011 budget would reduce funding for this program to only $580 million. 
This is substantially below the fiscal year 2010 enacted level of $700 
million, and, in fact, is well below funding that had been provided for 
this program in each of fiscal years 2005 through 2009--which had 
averaged $630 million annually but which had not been adjusted to 
address increases in housing costs caused by inflation. While the band 
very much appreciates the additional funds provided for this program 
through the American Recovery and Reinvestment Act of 2009, the ARRA 
funds should supplement and not reduce program funding levels. Indeed, 
because of the severe and persistent deficiencies in housing in Indian 
Country, program funds should be increased above the fiscal year 2010 
enacted level.
    Native Americans suffer the most substandard housing--at a rate of 
six times that of the population at large. The Fond du Lac Band, like 
tribes nationwide, has longstanding and severe housing needs. Our 
reservation, located in northeastern Minnesota, is part of our 
aboriginal homeland. The reservation was established for us by treaty 
with the United States on September 30, 1854 as our permanent home. We 
have 3,900 enrolled tribal members, and provide a wide range of 
services not only to our members, but to approximately 6,500 Indian 
people who live and work on and near our reservation.
    The Fond du Lac Reservation did not receive public housing until 
1965, 30 years after public housing was established for all other 
Americans. The implementation of the housing program for Fond du Lac 
followed many years of failed Federal policy, which served to break up 
families by placing children in boarding schools and foster homes, and 
which relocated many of the residents of the Fond du Lac Reservation 
from the reservation to urban areas. In recent years, especially with 
the decline in the Nation's economy, many band members have come back 
to the reservation in the interest of obtaining jobs that the band has 
been able to provide as a result of the band's recent strides in 
economic development.
    Although our reservation encompasses 100,000 acres of land, the 
Federal allotment policy, which was applied to the Fond du Lac 
Reservation in 1889, left us with the poorest lands; our most valuable 
lands went to timber companies and homesteaders. In addition, our 
reservation is located in a geographic area that contains mostly 
marginal lands that require costly drainage projects for the land to be 
useable. Our lands are considered a difficult environment for 
affordable housing because they require high development costs 
associated with substandard soils and expensive sewage systems and a 
lack of decent infrastructure. In an effort to meet our members' 
housing needs, the band has found it necessary to invest significant 
funds to remediate the band's current lands, purchase other lands, and 
construct the infrastructure (septic systems, water and sewer lines, 
roads, and utility services) that is essential to serve those lands.
    The band cannot do this alone. The band has long depended on the 
funds made available to Indian tribes through HUD to assist us in 
meeting the housing needs of our members. But the deficits in housing 
for Indian people are so entrenched and so severe that they will not be 
remedied without continued Federal financial assistance.
    We currently have 73 units of home ownership housing and 231 units 
of low rent housing. Many of our housing units are over 15 years old, 
with the oldest units built more than 30 years ago, in 1970. Because of 
the age of our housing stock, the units are constantly in need of 
maintenance and repairs. Approximately 30 percent of our housing units 
require major renovation, such as the replacement of roofs and siding, 
as well as upgrades in plumbing and other utility systems, and the 
replacement of windows and doors. Other units require routine repairs 
and maintenance, the average cost of which is $5,000 per year.
    The Fond du Lac Housing Division currently has a waiting list of 
approximately 300 applicants seeking low income and home ownership 
housing. We have many other tribal members who are also in need of 
housing, but who have moderate incomes and therefore are not even shown 
on our waiting list. To meet the needs of our members we need to build 
at least 300 new housing units. Our greatest need is for low income 
rental units and funds to cover the cost of repairs and maintenance. We 
also have ongoing needs to build new and upgrade existing septic 
systems to serve that housing, the cost of which is estimated to be 
approximately $1-$2 million.
    The disparity between housing conditions among our members and that 
of the general population is shown by the 2000 Census. In Minnesota, 
0.5 percent of the population lives in homes lacking complete plumbing. 
In contrast, among Fond du Lac members that figure is 10 times higher--
5.1 percent. In Minnesota, 0.48 percent of the population lives in 
homes that lack complete kitchens. In contrast, among Fond du Lac 
members, 4.2 percent live in homes without complete kitchens. In 
addition the poverty rate in Minnesota is 7.9 percent, while the 
poverty rate among Fond du Lac members is 14 percent.
    Because of the severity of our housing shortage, approximately 20 
percent of our people currently live in overcrowded homes. It is not 
uncommon on our reservation and among our people to find 10 or more 
individuals living together in a 2-bedroom home. Overcrowding, in turn, 
taxes the house itself by accelerating the wear and tear on those 
homes.
    Overcrowding and dilapidated housing creates other risks. As 
discussed by the U.S. Commission on Civil Rights, in its report, A 
Quiet Crisis: Federal Funding and Unmet Needs In Indian Country, at 62-
63 (July 2003), the high rate of overcrowded housing among Native 
Americans increases the risk of fire and accidents, and creates 
unsanitary conditions, with increased spreading of communicable but 
normally preventable illnesses. Overcrowded housing is especially 
harmful to children, who, as the Commission found, are likely to 
``suffer sleep deprivation and inability to concentrate in school.'' In 
addition, overcrowded housing ``often results in stress, which can 
magnify family dysfunction and eventually lead to alcohol and child 
abuse.'' A Quiet Crisis at 63. We see these problems at Fond du Lac.
    Our members who are compelled to live in overcrowded homes are also 
often only a step away from being homeless. As set out in a recent 
study of homeless and near-homeless persons on northern Minnesota 
Indian Reservations, including the Fond du Lac Reservation, 
``[d]oubling up with family or friends is often the last housing 
arrangement a person has before becoming literally homeless, and it is 
common for people to go back and forth between doubling up and 
homelessness.'' Wilder Research, Homeless and Near-Homeless People on 
Northern Minnesota Indian Reservations (Nov 2007), http://
www.wilder.org/download.0.html?report=2018. The Report further found a 
substantial number of Indians on the six reservations studied to be in 
this near-homeless status.
    Homelessness is an equally severe problem among Fond du Lac 
members. In 1994, the Minnesota Housing Finance Agency reported that 
while the homeless rate for all Minnesota residents was 0.92 percent, 
the homeless rate among Fond du Lac members was 6.54 percent. See 
Minnesota Housing Finance Agency, Comprehensive Housing Affordability 
Strategy 1996-2000 at 28, 43, 49 (December 29, 1995). The problem of 
homelessness continues to exist. A 2006 study shows that a 
disproportionately high number of Native Americans in Minnesota are 
homeless. See Wilder Research, Overview of Homelessness in Minnesota 
2006: Key Facts from the Statewide Survey (April 2007), http://
www.mnhousing.gov/initiatives/housing-assistance/Resources/index.aspx. 
The study reports that although Native American adults are only 1 
percent of the population of the State, they are 11 percent of the 
adults identified as homeless. And while Native American youth (age 11 
to 17) are only 2 percent of the youth population in the State, they 
are 22 percent of the homeless youth that are unaccompanied by an 
adult. Id. at p 9.
    We see the problem of homelessness among our members every day. The 
band regularly receives requests from band members who are homeless and 
in need of housing. The band currently has no facilities to provide 
temporary shelters to house our members when emergencies arise and 
there are no homeless shelters in close proximity to the Fond du Lac 
Reservation. Instead, in an effort to combat this problem, the band has 
found it necessary provide temporary shelter to homeless band members 
in the band's Black Bear Hotel and other local hotels and motels.
    In addition, several years ago, the band established an emergency 
rental assistance program. Under this program, the band provides 
emergency shelter to band members in need of housing by paying the 
security deposit and first month's rent on a rental unit anywhere 
within a 60 mile radius of our reservation. The band has provided 
rental assistance to many band members since the program was created. 
But although this program does address the immediate housing crisis 
faced by a family that becomes homeless, it is not a long term solution 
for many of our members who do not have sufficient financial resources 
to continue to pay the higher rents that are generally charged for 
housing outside the reservation. Those members risk becoming homeless 
again a few months after emergency rental assistance is provided. The 
band needs more units of affordable low-income rental housing to meet 
the needs of these individuals. However, because of budget limitations, 
we do not have enough funds to cover the cost of building and 
maintaining a sufficient number of low income rental housing units.
    The Fond du Lac Band also needs to address the housing needs of our 
elderly population by providing assisted living accommodations for them 
if they so choose. Our elders are our teachers and mentors and we need 
to honor and respect them by giving them comfort and security, and 
allow them to live in a secure, healthy and worry-free environment. 
While the band has two housing complexes for our elders, there are not 
a sufficient number of units within those complexes to meet the need. 
Further, the units in those complexes do not have the medical and 
related facilities if the elders require greater assisted care. In such 
circumstances, our elders must find a nursing home outside the 
reservation.
    The band relies on its annual grant from the Department under the 
NAHASDA program to meet some of these housing needs. The band has also 
relied on Indian Community Development Block Grants, which the band has 
been able to use for infrastructure. However, the funding for these 
programs has not materially increased over the years. At the same time, 
the costs of the supplies, materials and labor necessary to remodel and 
modernize our aging housing stock have increased every year with 
inflation. Each year we are forced to do more with less. Current 
funding levels simply do not meet the housing needs. The lack of any 
real increases in the NAHASDA program before fiscal year 2010 and in 
the other HUD programs that are intended to serve Indians will only 
make this housing crisis worse. The Federal Government's trust 
responsibility demands that this Indian housing crisis be addressed.
    Housing represents the single largest expenditure for most Indian 
families. The development of housing has a major impact on the national 
economy and the economic growth and health of regions and communities. 
Housing is inextricably linked to access to jobs and healthy 
communities and the social behavior of the families who occupy it. The 
failure to achieve adequate housing leads to significant societal 
costs.
    Decent, affordable, and accessible housing fosters self-
sufficiency, brings stability to families and new vitality to 
distressed communities, and supports overall economic growth. Very 
particularly, it improves life outcomes for children. In the process, 
it reduces a host of costly social and economic problems that place 
enormous strains on the education, public health, social service, law 
enforcement, criminal justice, and welfare systems. For these reasons 
the Fond du Lac Band strongly urges Congress to increase funding for 
our housing needs so we can meaningfully address the needs of the core 
of our communities.
            Miigwech. Thank you.
                                 ______
                                 
        Prepared Statement of the Railway Supply Institute, Inc.

    Thank you for the opportunity to submit this statement.
    The Railway Supply Institute (RSI) appreciates the opportunity to 
provide this subcommittee with our views on important transportation 
funding policy.
    Established in 1908, RSI is the international association of 
suppliers to the Nation's freight, passenger rail systems, and rail 
transit authorities. The domestic railway supply industry is a $20 
billion a year business with some 500 companies employing 150,000 
people. Approximately 25 percent of sales involve Amtrak, commuter 
railroads and transit authorities. A strong national freight and 
passenger rail system will not only continue to sustain good paying 
domestic jobs but will lead to future job creation as well.
    RSI supports both our Nation's freight and passenger rail 
operations. We need a strong, national railroad passenger system that 
contributes to reducing dependence on foreign oil; reducing carbon 
emissions into the atmosphere; reducing congestion on our highways; 
improving transportation safety; reducing airport congestion; and that 
will enhance our ability to move vast numbers of people in emergency 
evacuation situations (i.e. 9/11, Katrina, etc).
    As representatives of those who supply our Nation's railroad 
industry, we submit that a more balanced national transportation policy 
that places more emphasis on rail will significantly contribute to 
meeting our Nation's stated policy objectives that are designed to make 
this Nation stronger.
    Our key requests for intercity passenger trains for fiscal year 
2011 are:
  --Amtrak's budget request: $592 million for operations; $1,299 
        million for capital (including $281 million for Americans with 
        Disabilities Act compliance work); $305 million for debt 
        service; $7 million for FRA oversight.
  --Amtrak's fleet strategy requirement: $446 million.
  --Capital grants for States: $4 billion, with an appropriate portion 
        designated for rolling stock acquisition.
    In addition, we urge the subcommittee to consider fully funding the 
FRA Railroad Safety Technology Grant Program in the amount of $50 
million. The grant program is intended to accelerate the installation 
of Positive Train Control (PTC) on key portions of the Nation's rail 
system. As you know, the Rail Safety Improvement Act of 2008 (RSIA) 
mandates the deployment of interoperable PTC systems by December 31, 
2015 on mainline tracks that carry passenger trains or Poison 
Inhalation Hazard/Toxic Inhalation Hazard materials. The new grant 
program was authorized under RSIA and has an 80/20 cost-sharing 
requirement. Funding assistance would help the railroads continue to 
expand needed capacity to meet both freight and passenger demands while 
still complying with the PTC mandate.
    Finally, RSI requests that the subcommittee provide full funding 
for the Federal Railroad Administration's rail research and development 
program, ideally to the administration's requested level of $40 
million. FRA's R&D program provides vital safety support including 
research on track issues, equipment crashworthiness, hazardous 
materials transport, human factor issues such as fatigue and many other 
areas supporting the Nation's rail safety program and saving lives.
    Your continued support for a healthy and vital rail network is good 
public policy and good for the Nation.
    Thank you for considering our views.
                                 ______
                                 
              Prepared Statement of the Hoopa Valley Tribe

    This written testimony is submitted in support of appropriations 
for the Hoopa Valley Tribe's Senior Nutrition (Elder) Center in the 
amount of $1,150,000. The agency involved is Housing and Urban 
Development and the programs involved include Economic Development 
Initiatives.
    The Hoopa Valley Tribe is a federally recognized Indian tribe 
governed by a chairman and a seven member tribal council. Our 
responsibilities include governing our tribal members and land; 
administering, managing and protecting our tribal property; 
safeguarding and promoting the peace and general welfare of the Hoopa 
Valley Indians; and negotiating with Federal, State and local 
governments.
    Located in the rural and remote areas of Northern California, the 
Hoopa Valley Indian Reservation is 55 miles from the larger populated 
areas of Eureka and Arcata. The Hoopa Valley Tribe is the largest land 
based tribe in California. Our reservation is referred to as the ``12 
mile square;'' it encompasses approximately 144 square miles (98,355 
acres) including the Valley floor.
    According to the U.S. Census Bureau (Census 2000), there are 
approximately 2,633 people living on the Hoopa Valley Reservation. 
About 84.7 percent of the residents are American Indian. Poverty, 
inadequate education, high rates of unemployment and limited access to 
health services are creating significant and alarming health 
disparities among our people. Around 32 percent of Hoopa residents are 
currently living in poverty, which is 2.3 times the statewide figure of 
14.2 percent and 2.6 times the nationwide figure of 12.4 percent. These 
statistics include our elders who are disproportionately affected by 
chronic conditions and are principally low income individuals living on 
fixed incomes.
    The K'ima:w Medical Center is an entity of the Hoopa Valley Tribe. 
It is an ambulatory clinic which offers a comprehensive set of services 
that include medical, dental, community health, nutrition, social 
services, senior nutrition, full laboratory and radiology services as 
well as specialty clinics for vision, podiatry and telemedicine. The 
service area of K'ima:w Medical Center includes the reservation as well 
as the surrounding areas of Willow Creek, Salyer and Johnson.
    The tribe and its K'ima:w Medical Center are seeking appropriations 
to construct a new Senior Nutrition (Elder) Center. Our current center 
is located in a very old building. We have safety concerns as well as 
simply not enough space for the services and activities we wish to 
offer our seniors, and which our seniors need. The Center we envision 
would become a focal point for the community and a place where seniors 
in the community could go for nutritious meals, community programs, 
medical screenings, physical therapy, and general health education. The 
Center would enable us to promote a more fit and healthy senior 
population through these screenings, exercise, activity and nutrition. 
Importantly, the Center would serve tribal members and non-tribal 
members in the community.
    Caring for our elders is of utmost importance to the Hoopa Valley 
Tribe. The Senior Nutrition (Elder) Center would greatly aid in 
improving the lives of senior citizens on the reservation. Because of 
the vast area and remote nature of our reservation, seniors can easily 
experience isolation from time to time. This Center would help 
alleviate this problem. It would provide a gathering place for elders 
to create and maintain social relationships and preserve their 
connection to the community. It would also provide opportunities for 
tribal members to learn from the tribe's elders as they administer care 
or simply visit with them at the Center.
    The Center's services would not only enhance the quality of life 
for our elders but would also help prevent and detect unnoticed 
healthcare problems. Poor nutrition and delayed detection of illnesses 
can lead to serious consequences. It is expected that the Center would 
help prevent healthcare problems and the substantial medical costs 
associated with same. Our elders face high rates of diabetes, 
dyslipidemia and high blood pressure. The Center would help seniors 
take control of their health before more serious problems arise.
    The tribe's current senior nutrition program serves meals to tribal 
and non-tribal elders in the community. Last year, we served 6,582 
meals on-site and 7,953 meals via home delivery. This was an increase 
of 332 meals over 2008. We expect these needs to continue to rise and 
an upgraded Center is vital to meeting expected increased demands. Our 
services in this regard are critical as the meal we serve is likely the 
only opportunity for a nutritious meal for a senior, and may very well 
be the only opportunity for a meal, period.
    Finally, a new Senior Nutrition Center would provide jobs in our 
remote area which is in need of economic development. The project is 
expected to create at least 15 construction positions. Further, 
permanent staff would be hired once the new Senior Nutrition Center is 
operational. Having more people employed on the reservation will 
stimulate the local economy, something which is seriously needed given 
our poverty rate and remote area.
    The Total Project Cost and Total Appropriations Request are:
  --Senior Nutrition (Elder) Center--Total $1,550,000
    --Construction of the building: $1,150,000
    --Kitchen equipment, furniture, additional building expenses--
            $400,000
    Of the Senior Nutrition Center's total costs, $1,550,000, the tribe 
plans to contribute $400,000 (26 percent) through the use of tribal 
funds and more community fund raising.
    Funding in the amount of $1,150,000 is requested for the 
construction of a new Senior Nutrition Center on the Hoopa Valley 
Reservation.
                                 ______
                                 
 Prepared Statement of the National Association of Railroad Passengers

    Thank you for the opportunity to submit this statement. Thank you 
also for the positive role that you and your subcommittee have played 
over the years in providing funding for intercity passenger trains.
    Our key requests for intercity passenger trains for fiscal year 
2011 are:
  --Amtrak's budget request: $592 million for operations; $1,745 
        million for capital (including $281 million for Americans with 
        Disabilities Act and $446 million for the fleet strategy); $305 
        million for debt service; $7 million for FRA oversight.
  --Capital grants for States: $4 billion, with an appropriate portion 
        designated for rolling stock acquisition.
  --Any funding needed to restore service to Las Vegas. Amtrak, as part 
        of its statutorily mandated California Zephyr performance 
        improvement plan is considering restoring Salt Lake City-Los 
        Angeles service. This would put Las Vegas back on the Amtrak 
        map and restore direct Denver-Los Angeles service. Around 1996, 
        when Amtrak was considering route reductions, the head of what 
        was then Amtrak's Chicago-based ``strategic business unit'' 
        told our chairman, ``If I had known Congress was going to put 
        back routes, based on the economics, I would have recommended 
        the Desert Wind (Salt Lake City-Los Angeles) first.''
  --Funding needed to restore service between New Orleans and Florida, 
        consistent with the PRIIA requirement that Amtrak by July 16, 
        2009, submit a plan to restart service.
  --Funding needed to restore service between Salt Lake City and the 
        Pacific Northwest and between Chicago and the Pacific Northwest 
        via southern North Dakota and southern Montana, as Amtrak 
        studied in response to the mandates in PRIIA.
    Equipping Trains for Growth.--A major factor hurting customer 
satisfaction and inflating operating costs is the 37-year average age 
of its locomotives and cars, including 92 long-distance ``Heritage'' 
cars that are between 53 and 61 years old.
    Amtrak's fleet strategy assumes ridership growth of only 2 percent. 
That is too conservative, given the need to increase capacity on 
existing routes and to add routes. We appreciate Amtrak's emphasis on 
their plan's ``scalability,'' that is, the fact that car acquisitions 
can be increased if the market calls for it and funding is provided. 
Indeed, some trains are already outpacing similarly conservative 
ridership projections.
    Nonetheless, this illustrates the financial challenge: failure to 
meet the funding targets Amtrak identified puts us close to a no-growth 
scenario regarding both additional capacity on existing routes and 
expanding the network to parts of the country that are not adequately 
served, a category that includes some of the fastest-growing regions in 
the United States.
    In addition to funding fleet needs directly, consideration should 
be given to the use of tax credits and/or asset depreciation benefits 
to encourage private leasing companies to buy equipment and lease it to 
States and perhaps Amtrak. Part of the goal is to reduce the high up-
front costs that taxpayer-supported agencies face when procuring new 
equipment.
    Also of critical importance is the $281 million Amtrak request to 
fulfill its obligation to bring stations into compliance with the 
Americans with Disabilities Act--money that is left out of the 
administration's budget. The Association supports Amtrak's current ADA 
policy as set forth in ``Amtrak Guidelines on Platform Design'' (April 
2008). Previously, we joined with Amtrak, the Class I railroads and 
commuter railroad agencies in strongly opposing a rule that had been 
under consideration by U.S. DOT that would have required full length 
platforms for level boarding. In fiscal 2010, Amtrak was instructed to 
spend the $144 million for ADA which in effect reduced other vital 
capital expenditures.
    The Importance of Trains.--More and better passenger trains and 
intermodal connections are crucial to maintaining mobility for our 
citizens, enhancing the quality of life in our communities, bolstering 
our Nation's economic competitiveness and energy efficiency, providing 
good jobs for Americans and reducing our transportation system's 
negative environmental impact.
    Mobility and quality of life issues become more relevant as the 
proportion of older citizens dramatically increases, and as young 
people become more receptive to non-auto transport.
    The national interest is well served by enabling as many people--
especially older people--as possible to lead a satisfying life with 
little or no driving. This can improve both safety and mental health, 
as people in auto-dependent environments who cannot drive suffer from 
the resulting sense of isolation.
    Fewer Teenaged Drivers.--At the same time, the Millennial 
Generation--people in their teens and twenties--is greatly attracted to 
a less car-dependent lifestyle. They increasingly do not view acquiring 
a driver's license as a ``rite of passage to maturity'' for 16-year-
olds. Indeed, my two sons of driving age, now 21 and 19, both got their 
drivers' licenses a year or two after turning 16, becoming serious 
about getting their licenses only after realizing that mass transit 
served their transportation needs poorly. Media reports confirm that my 
sons are not unique, including WRAL.com in Raleigh (January 25), 
Tampa's News Channel 8 (February 11), and New York Times (February 25, 
2008).
    Ridership and Polls.--Americans' desire for improved train service 
is demonstrated through increasing ridership on Amtrak and rail transit 
systems nationwide. Amtrak gained riders for 6 straight years--from 
2002 to 2008. The 2008 run-up in gasoline prices was a big factor in 
ridership growth of 11 percent from 2007 to 2008. While Amtrak and 
transit ridership fell in 2009, due in part to the recession and lower 
gasoline prices, Amtrak ridership still was 5 percent above the 2007 
level. Amtrak ridership through the first half of fiscal year 2010 
(October-March) was 4.3 percent above the year-earlier level (long-
distance trains were up 5.2 percent).
    For years, polls have consistently shown strong support for 
increased investment in passenger trains. A recent one, by Kelton 
Research--taken February 1-7, 2010 for HNTB Corporation--showed 88 
percent ``open to high-speed rail for long-distance travel within the 
U.S.,'' according to a February 18 report in Metro Magazine, which also 
cited 83 percent support for increasing the share of Federal funding 
that goes to public transit and high-speed rail infrastructure. HNTB's 
Peter Gertler said, ``The pain we felt when gasoline was hovering near 
$4 a gallon has receded, yet we can't stand by for the next crisis to 
hit to address the underlying issues of congestion and our dependence 
on limited fossil fuels.''
    Amtrak's Funding Request.--We are concerned that reducing Amtrak's 
other capital items to make way for the ``full ADA funding,'' which in 
effect happened this year, damages the overall system, with detrimental 
impact on all passengers including those with disabilities. Shorting 
the capital request creates a problem for the effort to let passenger 
trains assume their rightful place as a primary mode of transportation 
providing a desirable travel choice for all Americans--as envisioned by 
President Obama.
    Grants to States.--We strongly support the general approach that 
U.S. DOT took in awarding the $8 billion in capital grants announced 
January 28. I commented on NBC Nightly News on January 30 that I was 
impressed both with ``the amount of funds involved and the intelligence 
with which it was distributed.''
    Operating Grant.--This is critical, in part because the big 
increase in the capital budget (including Recovery Act funds) drives up 
operating costs, as not all personnel costs associated with capital 
projects can be capitalized. Moreover, the mandates of PRIIA also 
create upward pressure on operating costs. The organization is handling 
more than twice the amount of work of 5 years ago. This underscores the 
urgency of maintaining Amtrak's operating grant at the full requested 
amount of $592 million.
    The Transportation for America Coalition's ``United States of 
Transit Cutbacks'' map vividly portrays the irony of transit agencies 
from Philadelphia to Phoenix receiving new Federal capital funds while 
withering operating support is forcing consideration of unacceptable 
service cuts--including the elimination of all service on certain days 
of the week, bus route terminations, station closures, and dramatic 
frequency reductions. As Secretary LaHood put it, it doesn't make sense 
to buy so many new trains and buses when we can't afford to pay 
operators to run them. On the intercity side, consideration should be 
given, at least in emergency situations, to allowing operation of 
State-supported intercity trains on a 50/50 matching basis, without 
making Amtrak swallow the difference.
    Oak Ridge National Laboratory Statistics.--The following table, 
showing 2007 data, comes from the annual Transportation Energy Data 
Book (Edition 28, released in 2009), published by Oak Ridge National 
Laboratory under contract to the U.S. Department of Energy:

------------------------------------------------------------------------
                                                           BTUs per
                        Mode                          passenger-mile \1\
------------------------------------------------------------------------
Amtrak..............................................               2,516
Commuter trains.....................................               2,638
Certificated air carriers...........................               3,103
Cars................................................               3,514
Light trucks (2-axle, 4-tire).......................               3,946
------------------------------------------------------------------------
\1\ BTU = British Thermal Unit; passenger-mile = one passenger traveling
  one mile.

    Overnight Trains.--We support Amtrak's initiative, discussed in the 
release, to combine the Texas Eagle and Sunset Limited into a daily, 
full-service Chicago-Los Angeles train via St. Louis, Dallas/Fort 
Worth, San Antonio, El Paso and Tucson. A connecting daily train 
between San Antonio and New Orleans via Houston is also planned, and we 
understand that some through New Orleans-Los Angeles cars will be 
restored if demand is strong. Currently, New Orleans-San Antonio-Los 
Angeles service runs tri-weekly.
    Hudson River Tunnels; North Station-South Station Rail Link.--We 
continue to be concerned about the construction of Hudson River rail 
tunnels that will not connect to Penn Station but only to a dead-end, 
deep cavern station under 34th Street. We continue to discuss this with 
New Jersey Transit. We support the $6 million that Massachusetts 
requested to complete environmental work on a potential rail link that 
would unify Boston's commuter rail networks and connect Amtrak's 
Northeast corridor to northern New England.
    Northeast Corridor Fares.--At an April 10 NARP membership meeting 
in Philadelphia, Dr. Vukan Vuchic of the University of Pennsylvania 
said trains ``should play a maximum role in society, and not just serve 
businessmen. Students, tourists, young and old, should be able to 
ride.'' Amtrak's current fares don't support that. This may be partly 
due to faulty judgments by Amtrak, but relentless pressure to reduce 
the operating grant is probably the bigger cause.
    Thank you for considering our views.
                                 ______
                                 
   Prepared Statement of the National American Indian Housing Council

                              INTRODUCTION

    Good afternoon Chairwoman Murray, Ranking Member Bond, and 
distinguished members of the Senate Subcommittee on Transportation and 
Housing and Urban Development, and Related Agencies. My name is Marty 
Shuravloff. I am the chairman of the National American Indian Housing 
Council (NAIHC), the only national tribal non-profit organization 
dedicated to advancing housing, physical infrastructure, and economic 
development in tribal communities in the United States. I am also an 
enrolled member of the Leisnoi Village, Kodiak Island, Alaska. I want 
to thank the subcommittee for the opportunity to submit testimony for 
its consideration as it prepares its fiscal year 2011 appropriations 
bill.

   BACKGROUND ON THE NATIONAL AMERICAN INDIAN HOUSING COUNCIL (NAIHC)

    The NAIHC was founded in 1974 and has, for 36 years, served its 
members by providing valuable training and technical assistance (T/TA) 
to all tribes and tribal housing entities; providing information to 
Congress regarding the issues and challenges that tribes face in terms 
of housing, infrastructure, and community and economic development; and 
working with key Federal agencies in an attempt to address such issues 
and meet such challenges. The membership of NAIHC is expansive, 
comprised of 271 members representing 463 \1\ tribes and tribal housing 
organizations. The primary goal of NAIHC is to support Native housing 
entities in their efforts to provide safe, quality, affordable, 
culturally relevant housing to Native people.
---------------------------------------------------------------------------
    \1\ There are approximately 562 federal-recognized Indian tribes 
and Alaska Native villages in the United States, all of whom are 
eligible for membership in NAIHC. Other NAIHC members include State-
recognized tribes that were deemed eligible for housing assistance 
under the 1937 Act and grandfathered in to the Native American Housing 
Assistance and Self-Determination Act.
---------------------------------------------------------------------------
   BRIEF SUMMARY OF THE PROBLEMS REGARDING HOUSING IN INDIAN COUNTRY

    While the country has been experiencing an economic downturn in 
general, this trend is greatly magnified in Indian communities. The 
national unemployment rate has risen and has hopefully passed its peak 
at an alarming rate of nearly 10 percent; \2\ however, that rate does 
not compare to the unemployment rates in Indian Country, which average 
49 percent.\3\ The highest unemployment rates are on the Plains 
reservations, where the average rate is 77 percent.\4\ Because of the 
remote locations of many reservations, there is a lack of basic 
infrastructure and economic development opportunities are difficult to 
identify and pursue. As a result, the poverty rate in Indian Country is 
exceedingly high at 25.3 percent, nearly three times the national 
average.\5\ These employment and economic development challenges 
exacerbate the housing situation in Indian country. Our first Americans 
face some of the worst housing and living conditions in the country and 
the availability of affordable, adequate, safe housing in Indian 
Country falls far below that of the general U.S. population.
---------------------------------------------------------------------------
    \2\ See http://www.bls.gov/news.release/empsit.nr0.htm.
    \3\ Bureau of Indian Affairs Labor Force Report (2005).
    \4\ Many of these reservations are in the State of South Dakota, 
which has one of the lowest unemployment rates in the Nation. However, 
on some South Dakota reservations, the unemployment rate exceeds 80 
percent.
    \5\ U.S. Census Bureau, American Indian and Alaska Native Heritage 
Month: November 2008. See http://www.census.gov.
---------------------------------------------------------------------------
  --According to the 2000 U.S. Census, nearly 12 percent of Native 
        American households lack plumbing compared to 1.2 percent of 
        the general U.S. population.
  --According to 2002 statistics, 90,000 Indian families were homeless 
        or under-housed.
  --On tribal lands, 28 percent of Indian households were found to be 
        over-crowded or to lack adequate plumbing and kitchen 
        facilities. The national average is 5.4 percent.
  --When structures that lack heating and electrical equipment are 
        included, roughly 40 percent of reservation housing is 
        considered inadequate, compared to 5.9 percent of national 
        households.
  --Seventy percent of the existing housing stock in Indian Country is 
        in need of upgrades and repairs, many of them extensive.
  --Less than one-half of all reservation homes are connected to a 
        sewer system.
    There is already a consensus among many members of Congress, HUD, 
tribal leaders, and tribal organizations that there is a severe housing 
shortage in tribal communities; that many homes are, as a result, 
overcrowded; that many of the existing homes are in need of repairs, 
some of them substantial; that many homes lack basic amenities that 
many of us take for granted, such as full kitchens and plumbing; and 
that at least 200,000 new housing units are needed in Indian Country.
    These issues are further complicated by Indian land title status. 
Most Indian lands are held in trust or restricted-fee status; 
therefore, private financial institutions will not recognize tribal 
homes as collateral to make improvements or for individuals to finance 
new homes. Private investment in the real estate market in Indian 
Country is virtually non-existent. Tribes are wholly dependent on the 
Federal Government for financial assistance to meet their growing 
housing needs, and the provision of such assistance is consistent with 
the Federal Government's centuries-old trust responsibility to American 
Indian tribes and Alaska Native villages.

   THE NATIVE AMERICAN HOUSING ASSISTANCE AND SELF-DETERMINATION ACT

    In 1996, Congress passed the Native American Housing Assistance and 
Self-Determination Act (``NAHASDA'') to provide Federal statutory 
authority to address the above-mentioned housing disparities in Indian 
Country. NAHASDA is the cornerstone for providing housing assistance to 
low-income Native American families on Indian reservations, in Alaska 
Native villages, and on Native Hawaiian Home Lands. The Indian Housing 
Block Grant (``IHBG'') is the funding component of NAHASDA. Since the 
passage of NAHASDA in 1996 and its funding and implementation in 1998, 
NAHASDA has been the single largest source of funding for Native 
housing. Administered by the Department of Housing and Urban 
Development (``HUD''), NAHASDA specifies which activities are eligible 
for funding.\6\ Not only do IHBG funds support new housing development, 
acquisition, rehabilitation, and other housing services that are 
critical for tribal communities; they cover essential planning and 
operating expenses for tribal housing programs. Between 2006 and 2009, 
a significant portion of IHBG funds, approximately 24 percent, were 
used for planning, administration, housing management, and services.
---------------------------------------------------------------------------
    \6\ Eligible activities include but are not limited to downpayment 
assistance, property acquisition, new construction, safety programs, 
planning and administration, and housing rehabilitation. As HUD's 
funding justification acknowledges (see http://hud.gov/offices/cfo/
reports/2011/cjs/nahb-grants2011.pdf, Page N-8), a large portion of 
tribal funds are spent on planning, administration, and operating 
expenses.
---------------------------------------------------------------------------
  AMERICAN RECOVERY AND REINVESTMENT ACT (ARRA) AND FISCAL YEAR 2010 
                          INDIAN HOUSING FUNDS

    NAIHC would like to thank Congress, particularly this subcommittee, 
for its increased investment in Indian housing in fiscal year 2010. 
AARA provided over $500 million for the IHBG program. This additional 
investment in Indian Country supports hundreds of jobs, has allowed 
some tribes to start on new construction projects, and has assisted 
other tribes in completing essential infrastructure for housing 
projects that they could not have otherwise afforded with their IHBG 
allocations. Tribes have complied with the mandate to obligate the 
funds in an expedient manner, thus helping stimulate tribal and the 
national economies. In addition to ARRA funding, Congress appropriated 
$700 million for the IHBG in fiscal year 2010, the first significant 
increase for the program since its inception. This positive step 
reversed a decade of stagnate funding levels that neither kept pace 
with inflation nor addressed the acute housing needs in Native 
communities.

THE PRESIDENT'S FISCAL YEAR 2011 BUDGET REQUEST FOR THE INDIAN HOUSING 
                              BLOCK GRANT

    On February 1, 2010, President Obama submitted to Congress a $3.8 
trillion budget request. It proposes $580 million for the IHBG, which 
is a decrease of $120 million (-17 percent) from the fiscal year 2010 
funding level.\7\ At the same time, HUD's overall budget was reduced by 
only 5 percent. Should Congress accept the President's budget request, 
it would be the lowest, single-year funding level for the NAHASDA since 
it was enacted in 1996. To put this in proper perspective, funding 
appropriated by Congress in fiscal year 1998, 12 years ago, was $20 
million more than the President's budget request for fiscal year 2011.
---------------------------------------------------------------------------
    \7\ Part of the rationale for reducing IHBG funding was what may 
appear to be a delay in use of available tribal housing funds. However, 
such apparent delay is an aberration. Since NAHASDA was initially 
funded in fiscal year 1998 through fiscal year 2009, tribal expenditure 
rates are 88 percent. Based on a HUD ARRA spending report dated March 
20, 2010, tribes are spending HUD and ARRA funds at a rate that at 
least equals and, in some cases, exceeds the national average.
---------------------------------------------------------------------------
    While the NAIHC and its members are aware of and appreciate the 
large investments made in Indian housing, we are disappointed that the 
current request fails to continue the positive budget trajectory of 
recent years. Therefore, the NAIHC strongly urges Congress to not only 
appropriate funds above the President's budget request, but to fund the 
IHBG at $875 million due to the increasing costs for housing 
development, energy efficiency initiatives, and other inflationary 
factors. Since the President's budget request was released, many of our 
members have expressed their deep concerns. They believe, and we agree, 
that this budget impacts not only housing, but also the very hope for 
self-sustaining economies in Indian Country.
    Reduced funding would result in the loss of jobs for our people, 
reversing the positive impact of ARRA; the deterioration of existing 
housing units; and the curtailment of many housing projects that are 
currently under development. Without sufficient funding and proper 
training and technical assistance, progress regarding tribal housing 
will not only cease; years of hard work will be reversed, as tribes 
will lack the funds to maintain and operate existing housing units, 
much less provide new ones. Many tribes are at risk of losing between a 
quarter and a third or more of their housing budgets if the President's 
budget request were to take effect, the impact of which would be 
devastating.

               OTHER INDIAN HOUSING AND RELATED PROGRAMS

The Title VI and Section 184 Indian Housing Loan Guarantee Programs
    The President's budget request includes $2 million for the title VI 
Loan Guarantee program and $8.25 million for the section 184 program. 
The title VI program is important because it provides a 95 percent 
guarantee on loans made by private lenders, which is an incentive for 
lenders to get involved in the development of much-needed housing in 
tribal areas. Section 184 is specifically geared toward facilitating 
home loans in Indian Country. We request that these programs be funded 
at $2 million and $9 million, respectively.
Indian Community Development Block Grant (ICDBG)
    While appreciated, proposed funds of $65 million for the ICDBG are 
insufficient to meet the current needs for essential infrastructure, 
including sewer and running water, in Indian Country. We request that 
this program be funded at $100 million.
Native Hawaiian Housing
    Low-income Native Hawaiian families continue to face tremendous 
challenges, similar to those that tribal members face in the rest of 
the United States. The President's budget request of $10 million for 
the Native Hawaiian Housing Block Grant is appreciated, but the budget 
includes no funding for the section 184A program in Hawaii. While it 
has taken some time to get this program started--because lenders are 
not familiar with the section 184A program--providing no funding would 
be a step backward for Native Hawaiian families working toward home 
ownership. We urge Congress to consider this before agreeing to the 
administration's proposal to eliminate funding for the program.

       TRAINING AND TECHNICAL ASSISTANCE (T/TA) AND THE PROPOSED 
                       TRANSFORMATION INITIATIVE

    The President's budget request would eliminate entirely the much-
needed, exceptional T/TA that has been provided by NAIHC since NAHASDA 
was implemented. The provision of T/TA is critical for tribes to build 
their capacity to effectively plan, implement, and manage tribal 
housing programs. Eliminating funding for T/TA would be disastrous for 
tribal housing authorities and would be a huge step in the wrong 
direction. Tribes need more assistance in building capacity, not less. 
Since NAIHC's funding for T/TA was restored in 2007, requests for T/TA 
have steadily grown. The funding that NAIHC is currently receiving is 
insufficient to meet the continuous, growing demand for T/TA. 
Therefore, we are forced to make difficult decisions regarding when, 
where, and how to provide the most effective T/TA possible to our 
membership.
    The President's budget request proposes an agency-wide 
Transformation Initiative Fund (``TIF'') with up to 1 percent of HUD's 
total budget, which would draw funds away from essential housing 
programs, including $5.8 million from the IHBG account, ``to continue 
the on-going comprehensive study of housing needs in Indian Country and 
native communities in Alaska and Hawaii.'' While the NAIHC membership 
believes the TI may have merit, we do not believe that transferring 
nearly $6 million from the IHBG account to conduct a study on housing 
needs is a wise or even defensible use of Federal taxpayer funds. More 
importantly, the $6 million affects funding that has historically been 
appropriated to NAIHC for T/TA. Through resolutions, the NAIHC 
membership has repeatedly taken the position that a portion of the IHBG 
allocation should be provided to NAIHC for T/TA, which is a reflection 
of their confidence in NAIHC and the continuing demand for the 
essential capacity-building services that we provide. We request that 
funding in the amount of $4.8 million for T/TA be included in the 
fiscal year 2011 budget.

                               CONCLUSION

    NAHASDA was enacted to provide Indian tribes and Native American 
communities with new and creative tools necessary to develop culturally 
relevant, safe, decent, affordable housing. NAIHC has very specific 
concerns regarding the President's budget request for Indian housing 
funding levels and we urge Congress, with the leadership of this 
subcommittee, to not permit excessive funding reductions in the NAHASDA 
program. To do so would be an enormous step backwards and devastate the 
progress that has been made in the past 12 years to improve housing 
conditions in Indian Country. Based on the facts outlined above and the 
potentially devastating impact a dramatic cut to Indian housing funds 
will most certainly have on Indian Country, NAIHC requests funding in 
the amounts outlined above in order to meet the immense needs in Indian 
country.
    Thank you, Chairwoman Murray, Ranking Member Bond, and the members 
of this subcommittee for allowing us to express our budgetary 
priorities and concerns regarding Native American housing needs. Your 
continued support of Native American communities is truly appreciated, 
and the NAIHC is eager to work with you and your professional staff on 
any and all issues pertaining to Indian housing programs and living 
conditions for America's indigenous people.
                                 ______
                                 
             Prepared Statement of Na Tanya Davina Stewart

    Subcommittee Members: I am submitting this testimony concerning the 
Federal and local transportation agencies charged with the creation and 
implementation of transportation projects in Lake County, Indiana and 
their non-compliance with Executive order 12898, 1994 and the 
provisions of Environmental Justice --``the fair treatment and 
meaningful involvement of all people regardless of race, color, 
national origin, or income with respect to the development, 
implementation, and enforcement of environmental laws, regulations, and 
policies.''
    On April 16 and 17, 2010, the Northwestern Indiana Regional 
Planning Commission (NIRPC), the Federal Highway Administration (FHWA) 
and the Federal Transit Administration (FTA) held corrective action 
workshops as a result of NIRPC's certification review to address the 
ongoing challenges NIRPC has with their technical analysis and lack of 
adherence to environmental justice mandates.
    During the course of the workshops several issues emerged that are 
of grave concern to those of us who were in attendance. We stated our 
concerns to NIRPC and feel compelled to address this subcommittee since 
NIRPC receives Federal funding from you.
  --On the Issue of Fair Treatment.--The Federal funding ratio of 80:20 
        for projects places an excessive burden upon cities that are 
        experiencing extreme revenue shortfalls. Gary, Indiana and the 
        entire Northwest Indiana Region once reigned as an industrial 
        giant and the steel industry was the backbone of the economy. 
        In this post-industrial age, cities like Gary have been slow to 
        transition to the information and technology economies. This is 
        a regional as well as a national problem. Our economic base 
        continues to erode along with our property values that 
        incidentally, are the source of our scant city revenues. Is it 
        possible for the Federal Government to make special allowances 
        when it comes to funding basic road maintenance projects by 
        lowering or eliminating the cost distressed cities have to pay 
        especially when budget cuts dictate that a city may be unable 
        to prioritize such basic yet essential projects? Safe and paved 
        streets are a quality of life issue.
  --On the Issue of Meaningful Involvement.--NIRPC receives most of its 
        funding from Lake County residents. The diverse ethnic and 
        intergenerational demographic make-up of the county is not 
        reflective in NIRPC's workforce and governing board. NIRPC's 
        board is appointed by dictates of State law and consists of 
        elected officials. We are aware that NIRPC's board appointments 
        are not an issue for the Federal Government to resolve. In 
        keeping with the call for meaningful involvement as put forth 
        by the definition of environmental justice and in our right to 
        fully engage in our democracy; it is imperative that we also 
        hold positions of power on the board and/or have a say in whom 
        we desire to represent our interests on the board in order to 
        be more involved in the decisionmaking on projects that will 
        affect our lives. Our calls to have grassroots organizations, 
        youth, the elderly, and differently able people represented in 
        these positions of power have fallen upon deaf ears and we feel 
        are a direct violation of our rights. It is our tax dollars 
        that fund NIRPC yet we do not play a significant role in the 
        development, implementation, and enforcement of the policies 
        and transportation projects that directly impact our lives. If 
        the Federal Government continues to fund agencies like NIRPC 
        then it is your responsibility to weigh in on ensuring said 
        agencies truly involve the community residents in every stage 
        of the development of projects.
      During the meeting, a board member of NIRPC just happened to 
        mention that NIRPC had recently created a 501c3 on Economic 
        Development within their organization. NIRPC had already 
        appointed the 501c3 board that is comprised of elected 
        officials and members from the business community. If a city 
        within NIRPC's jurisdiction wants to move forward on an 
        economic development plan and is in need of additional revenue 
        from the Federal Government, that city would have to go through 
        NIRPC to secure Federal dollars. Based upon NIRPC's history of 
        non-inclusion of marginalized people and their technical 
        analysis and environmental justice shortcomings as cited by the 
        certification review process, we are gravely concerned about 
        the acquisition of NIRPC's new power.
    We implore the Federal Government to re-evaluate their funding 
allocation policies. When Federal funds for transportation are directed 
to State governments and Metropolitan Planning Organizations (MPO) how 
are those monies dispersed? Do cities with the greatest need receive 
the bulk of the money or cities more adapt with the grant writing 
process? Is the national objective to secure and maintain center cities 
and make them more energy efficient and accessible or is it to continue 
to fund urban sprawl and construct new highways that will decimate 
farmland and open spaces we all rely upon for food and oxygen?
    Sending monies to the State government and MPO's may be an 
efficient mechanism to maintain Federal and State highways and regional 
projects like light and speed rail but may not be an efficient 
distribution of funds for local projects like street and bridge 
maintenance. When cities have to compete for monies from a funding pool 
that encompasses projects that include regional and State projects, 
cities may lose out on funding opportunities and continue to decline, 
especially during economic down turns.
    We ask that you take our funding concerns and efforts to hold MPO's 
like NIRPC to the high standards of inclusion set forth by Executive 
order 12898, 1994 into consideration as you weigh in on the fiscal year 
2011 appropriations and general national transportation policies.
                                 ______
                                 
       Prepared Statement of the National AIDS Housing Coalition

    The National AIDS Housing Coalition (NAHC) requests $410 million 
for the Housing Opportunities for Persons With AIDS Program (HOPWA) for 
fiscal year 2011. NAHC is a national non-profit membership housing 
organization founded in 1994 that works to end the HIV/AIDS epidemic by 
ensuring that persons living with HIV/AIDS have quality, affordable and 
appropriate housing. NAHC's members are people living with HIV/AIDS, 
service providers, developers, researchers, public health and housing 
departments and advocates.
    Research presented through NAHC's Research Summit Series 
overwhelmingly confirms housing as a strategic point of intervention to 
address HIV/AIDS and the impacts of homelessness and the concomitant 
effects of race and gender, poverty, mental illness, chronic drug use, 
incarceration and exposure to trauma and violence. Housing has been 
shown as cost effective by stabilizing people with HIV/AIDS and 
reducing reliance on other public systems.
    The HOPWA program is relied upon by HIV/AIDS service organizations 
nationwide to assure that stable, affordable housing and the critical 
supportive services that help people remain housed is available to 
those coping with the debilitating and impoverishing effects of HIV/
AIDS. HOPWA's hallmark is its flexibility to provide a continuum of 
housing and housing-related case management and supportive services for 
low income individuals and their families living with HIV/AIDS. HOPWA 
dollars are used for short and longer term rents, facility-based 
assistance as well as limited rent, mortgage or utility payments that 
play a critical role in homelessness prevention. HOPWA can also be used 
for new development and rehabilitation. Finally, in the face of 
shrinking resources, HOPWA's importance to community strategic planning 
efforts cannot be underestimated--facilitating better coordination of 
local and private resources and filling gaps in local systems of care 
to meet housing need among people with HIV/AIDS and their families.

              AIDS HOUSING IS CENTRAL FOR HIV/AIDS HEALTH

    Lack of housing is associated with remaining outside of medical 
care and improved housing status has been shown to significantly affect 
access to healthcare, including anti-retroviral treatment (ART) and 
adherence. In summary:
    Housing Impacts Continuity of Care.--Over time, housing status is 
among the strongest predictors of entry into HIV care, primary care 
visits, continuous care, and care that meets clinical practice 
standards.
    Housing Improves Health Outcomes.--Improved housing status has a 
significant, positive association with better HIV-related health, 
including CD4 counts, viral load, and co-infection with HCV or TB.
    AIDS Housing is a Powerful Weapon Against Homelessness.--Research 
confirms that homelessness is a major risk factor for HIV, and HIV is a 
major risk factor for homelessness: for example, at any given time, up 
to 16 percent of people living with HIV/AIDS are homeless, while as 
many as 70 percent report a lifetime experience of homelessness or 
housing instability.
    AIDS Housing is Prevention.--Over time, persons who improve their 
housing status reduce their risk behaviors by one-half. Access to 
housing improves access and adherence to ART, which lowers viral load 
and reduces the risk of transmission.
    AIDS Housing is Cost-effective.--AIDS housing investments reduce 
other public costs by improving the health of people living with HIV/
AIDS and preventing new infections, making housing dollars a wise use 
of limited public resources.

                HOUSING NEED AMONG PEOPLE WITH HIV/AIDS

    Over 56,000 people became infected with HIV in the past year in the 
United States. Experts estimate that over one-half of people living 
with HIV/AIDS will need some form of housing assistance during the 
course of their illness, while national research has shown that housing 
is the greatest unmet service need for people living with HIV disease. 
Data indicates that approximately 72 percent of PLWHA have incomes 
below $30,000; the number in need is likely to increase proportionally 
with the weakened economy and sustained high unemployment levels.
    In 2010, HOPWA will continue providing housing support for over 
58,000 households in 133 formula eligible jurisdictions, providing 
assistance in all 50 States, the District of Columbia, Puerto Rico and 
the Virgin Islands. Three new jurisdictions became eligible for formula 
funding--Little Rock, Arkansas; Albuquerque, New Mexico; and Allentown, 
Pennsylvania. In addition, 93 competitive grants are currently 
operating. The program is tied to positive client outcomes in the 
58,367 households served in the current fiscal year, making it possible 
for assisted individuals to better attend to their health needs, 
function in their families and society. AIDS housing is a cost-
effective way to end homelessness and achieve positive individual and 
community health outcomes. HUD reports that 94 percent of all HOPWA 
rental assistance households in a recent program year were able to 
achieve maximum stability, reducing risks of homelessness and 
participating in healthcare.
    NAHC recommends a funding level of $410 million, which would permit 
assistance to an additional 14,000 people with HIV/AIDS in need of 
housing assistance and reduce unmet need by over 10 percent.

            EXAMPLES OF AIDS HOUSING NEED ACROSS THE COUNTRY

    AIDS housing need has exploded in virtually every region of the 
country. As the affordable housing crisis envelopes higher income 
people, persistently vulnerable populations are squeezed out of 
assistance. Though waiting lists are no longer maintained in many 
jurisdictions, affordable housing need continues to grow.
    In Alabama, just 414 people with HIV/AIDS and their families 
receive HOPWA assistance, while 2,173 HOPWA-eligible households have 
unmet housing needs. The tenant-based rental assistance program has 
been closed to new applicants since June 2008. Of the families on the 
waiting list, 77 percent are living at or below the poverty level.
    Across Massachusetts, 1,699 families are on waiting lists for AIDS 
housing assistance--355 in greater Boston alone.
    In San Francisco, the city's centralized housing waiting list has 
over 1,000 people and has been closed to new applicants since November 
2001.
    There are 4,637 people living with HIV/AIDS on the waiting list for 
housing assistance in Dallas--almost one-third of all HIV-positive 
people in the city. In needs assessments, housing assistance was 
consistently ranked second in overall unmet need, surpassed only by 
dental care.
    The overall number of unmet AIDS housing need in Central Ohio from 
2004-2009 is 770 households, based on the current Consolidated Plan for 
the city of Columbus.

            OTHER LOW INCOME HOUSING PROGRAMS REMAIN CRUCIAL

    Of course, HOPWA will never fully meet the housing need for all 
those living with HIV/AIDS and their families. AIDS housing providers 
urge full and adequate funding for the range of low-income housing 
programs relied upon in the continuum of housing and services for 
people with HIV/AIDS, including Homeless Assistance Grants, Tenant-
Based Rental Assistance, Public Housing, and section 811 Housing for 
People with Disabilities, among others.
    In conclusion, NAHC urges the subcommittee to fund the Housing 
Opportunities for Persons With AIDS program at the highest level 
possible for fiscal year 2011 to accommodate new formula jurisdictions 
expected to become eligible and to assist existing programs in moving 
closer to meeting the actual housing needs in their jurisdictions.
    NAHC respectfully asks the subcommittee to approve funding of $410 
million for the Housing Opportunities With AIDS program for fiscal year 
2011.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                            Research (UCAR)

    On behalf of the University Corporation for Atmospheric Research 
(UCAR) and the larger university community involved in weather and 
climate research, I submit this written testimony for the record of the 
Senate Committee on Appropriations, Subcommittee on Transportation and 
Housing and Urban Development, and Related Agencies.
    UCAR is a consortium of 75 universities that manages and operates 
the National Center for Atmospheric Research and additional programs 
that support and extend the country's scientific research and 
educational capabilities. UCAR is supported by the National Science 
Foundation and other Federal agencies, including the U.S. Department of 
Transportation (USDOT)'s Federal Highway Administration (FHWA) and 
Federal Aviation Administration (FAA).
    I want to thank the subcommittee for its leadership in supporting 
research and development programs at the FAA and FHWA. I urge you to 
support the President's commitment to ensuring safer, more efficient 
air and road travel. One essential piece of this commitment to 
modernizing air and surface travel is providing drivers, pilots, and 
other vehicle operators with access to real-time weather information. I 
urge you to support these relatively small but critically important R&D 
programs within the FAA and FHWA budgets.

                 FEDERAL HIGHWAY ADMINISTRATION (FHWA)

    The highest priority for the USDOT and the FHWA is transportation 
safety. Last month, the National Highway Traffic Safety Administration 
released a report projecting that traffic fatalities have declined for 
the 15th consecutive quarter, the lowest annual level since 1954. 
Still, 24 percent of weather-related vehicle crashes occur on snowy, 
slushy or icy pavement, causing 1,300 deaths and more than 116,800 
injuries annually. There are also economic costs: snow and ice 
significantly increase road maintenance costs, and State and local 
agencies spend more than $2.3 billion on snow and ice control 
operations annually.
    Since the late 1990s, researchers and engineers from several 
national labs and universities have played a pivotal role bringing the 
surface transportation and weather communities together to increase 
traffic safety, efficiency, and mobility. Applications of successful 
research and development supported by the Road Weather Research and 
Development Program (SAFETEA-LU sec. 5308) have significantly reduced 
the cost of State DOT winter snow and ice control activities and are 
likely to have significantly reduced weather-related accidents. This 
program, authorized at $5 million per year, has proven quite 
successful. For example, the Winter Maintenance Decision Support 
System, which supports pavement snow and ice control operations, was 
successfully developed, tested, and implemented by the private sector 
in more than 13 States. The Road Weather Research Program is also 
developing advanced weather and road condition safety applications as 
part of the USDOT's IntelliDrive Initiative.
    In the absence of a new surface transportation reauthorization 
bill, the President's fiscal year 2011 request keeps funding for the 
Road Weather Research Program frozen at $4 million. It is imperative 
that this be increased to the authorized level of $5 million per year. 
A fully-funded Program would support the development of technologies 
that integrate weather and road condition information into traffic 
management centers, improve understanding of driver behavior in poor 
weather, develop in-vehicle information systems and wireless 
technologies that provide warnings to drivers when poor weather and 
road conditions exist, improve the understanding of the impact of 
weather on pavement condition, and develop new active control 
strategies optimized for poor weather and road conditions. I urge the 
subcommittee to fund the Road Weather Research and Development Program 
at its full authorized level of $5.0 million in fiscal year 2011.

               THE FEDERAL AVIATION ADMINISTRATION (FAA)

    Projections indicate that the demand for aviation will increase by 
a factor of two or three over the next two decades. Expansion of 
aviation is likely to continue and, as in the past, could outpace 
economic growth. To meet future aviation capacity needs, the United 
States is developing and implementing a dynamic, flexible and scalable 
Next Generation Air Transportation System (NextGen) that is safe, 
secure, efficient and environmentally sound.
    I urge you to support the President's overall fiscal year 2011 
request of $16.5 billion for the FAA, an increase of $476 million above 
fiscal year 2010 enacted levels. This increase reflects the 
administration's recognition of future passenger growth and its 
commitment to safety and performance.

     INTEGRATING WEATHER INTO THE FUTURE AIR TRANSPORTATION SYSTEM

    The primary goal of NextGen is to address and meet the rapidly 
changing needs of the National Airspace System (NAS). Providing 
accurate, timely weather information required by aviation 
decisionmakers is fundamental to NextGen's success in achieving 
capacity, efficiency, and safety goals. Improved weather forecasts, 
plus a shared source of decision support information for NAS 
decisionmakers, are crucial elements of achieving the goal of reducing 
the weather impact. The first step, though, is establishing a clear 
understanding of the impacts that have the most effect on NAS 
efficiency and capacity. The most visible impact to us all is 
``delays,'' both airborne and ground, affecting both airplanes and 
people. Delay translates to operational cost for the airlines, and lost 
productivity for the users of the system--people and cargo.

                 RESEARCH, ENGINEERING, AND DEVELOPMENT

    The fiscal year 2011 request of $190 million for the Research, 
Engineering, and Development (RE&D) line office at the FAA continues 
important work in current research areas, including aviation weather 
research. This 7.6 percent increase over fiscal year 2010 supports 
enhanced NextGen research and development efforts in the areas of air-
ground integration, weather information for pilots, and environmental 
research for aircraft technologies and alternative fuels to improve 
aviation's environmental and energy performance. The following programs 
can be found within the RE&D line office of the President's fiscal year 
2011 FAA budget request.

                            WEATHER PROGRAM

    Aviation weather research and applications are critical to the 
FAA's safety, operations and efficiency record. A number of research 
projects are underway, through the Weather Program and in collaboration 
with industry representatives, which focus on in-flight icing, 
turbulence, winter weather and deicing protocols, thunderstorms, 
ceiling, and visibility.
    One example system that translates a large amount of weather data 
into a significant safety and delay impact is the Weather Decision 
Support for Deicing Decision Making System (WSDDM). The accumulation of 
ice on aircraft prior to take off has long been recognized as one of 
the most significant safety hazards affecting the aviation industry 
today. Using WSDDM, airport snowfall rate in terms of liquid water 
content is translated into deicing fluid application procedures and 
aircraft holdover times.
    While the goal of the Weather Program is to increase safety, 
capacity, and support NextGen, I am very concerned that the request of 
$16.5 million simply will not support the R&D needs of the program 
which is down almost 2 percent from last year's level and operating 
with one-half the funding level of 10 years ago. To address the 
challenges and meet the research needs of NextGen, the Weather Program 
must receive, at a minimum, $18 million for fiscal year 2011.

                   WEATHER TECHNOLOGY IN THE COCKPIT

    The crash of an Air France jet last year over the Atlantic Ocean, 
killing all 216 passengers and 12 crew members, is an example of the 
limits of pilots' ability to cope with severe weather. Pilots currently 
have little weather information as they fly over remote stretches of 
the ocean, which is where some of the worst turbulence occurs. 
Providing pilots with at least an approximate picture of developing 
storms could help guide them safely around areas of potentially severe 
weather.
    The Weather Technology in the Cockpit Program leverages research 
activities with other agencies, academia and the private sector by 
enabling the adoption of cockpit technologies that provide pilots with 
hazardous weather information and improve situational awareness. It 
seeks to ensure the adoption of cockpit, ground, and communication 
technologies, practices, and procedures that will provide pilots with 
shared and consistent weather information to enhance common situational 
awareness, plus engage the aircraft as a ``node'' that autonomously 
exchanges weather information with surrounding aircraft and ground 
systems. One system being developed combines satellite data and 
computer weather models with cutting-edge artificial intelligence 
techniques to identify and predict rapidly evolving storms and other 
potential areas of turbulence, and alert pilots and air traffic 
controllers to storms and turbulence over the continental United 
States.
    I am very disappointed that the fiscal year 2011 request for this 
small but life-saving program was reduced almost 3 percent from fiscal 
year 2010 to $9.3 million. I urge you to fund the Weather Technology in 
the Cockpit program at $10 million, at a minimum.

                        FACILITIES AND EQUIPMENT

    In the FAA's Facilities and Equipment line office, I would like to 
call your attention to two very important programs, NextGen Network 
Enabled Weather (NNEW) and Reduce Weather Impact, and ask you to 
support the fiscal year 2011 request for both.

                 NEXTGEN NETWORK ENABLED WEATHER (NNEW)

    Exploring, identifying, and employing methods and techniques that 
will help facilitate the flow of operation-specific weather-related 
data and information to end users is critical. The NextGen Network 
Enabled Weather project is dedicated to using and developing 
technologies and standards for NextGen that will support effective 
dissemination of weather data. The concept of a 4-D Weather Data Cube 
is a foundational element of NextGen. It is envisioned that this 
virtual data cube will comprise weather data and information from 
disparate data contributors and locations. From this Cube, end users 
(e.g., air traffic managers, pilots, etc.) will be able to obtain a 
common weather picture of the NAS. The fiscal year 2011 request for 
NNEW is $28.25 million, an $8 million increase over fiscal year 2010. 
To develop the NextGen weather dissemination system smoothly and 
efficiently, I urge you to support this request.

                     NEXTGEN REDUCE WEATHER IMPACT

    The goal of the NextGen Reduce Weather Impact Program is to provide 
increased capacity in U.S. airspace to reduce congestion and meet 
projected demand in an environmentally sound manner. The Program 
addresses implementation of improved forecasts and provides weather 
forecast information tailored for integration into traffic management 
decision support systems. Some of this work starts with identification 
of the air traffic management impact of interest, and then translating 
weather into metrics associated with that impact.
    The current weather observing network is inadequate to the needs of 
NextGen. Improvements will be central to the Reduce Weather Impact 
Program. Working with appropriate scientific, modeling and user 
communities, current sensor information and dissemination shortfalls 
will be identified and evaluated. Investigating technologies for 
optimizing and improving automated aircraft weather reporting will also 
be conducted. To continue this work, I urge you to support the 
President's fiscal year 2011 request of $43.2 million for the NextGen 
Reduce Weather Impact Program, an increase of $7.6 million above fiscal 
year 2010.
    On behalf of UCAR, as well as all U.S. citizens who use the surface 
and air transportation systems, I want to thank you for the important 
work you do in supporting the country's scientific research, training, 
and technology transfer. We appreciate your attention to the 
recommendations of our community concerning the fiscal year 2011 FHWA 
and FAA budgets and your concern for the safety of the Nation's 
transportation systems.
                                 ______
                                 
   Prepared Statement of the National Recreation and Park Association

    Thank you Chairwoman Murray, Ranking Member Bond, and other members 
of the subcommittee for this opportunity to submit written testimony on 
the fiscal year 2011 appropriations bill.
    NRPA is a 501(c)3 national non-profit organization with more than 
21,000 members. We represent both citizens and park and recreation 
professionals. Our mission is to advance parks, recreation and 
environmental conservation for the benefit of all people. Because we 
represent the public park and recreation agencies in the United States, 
we touch the lives of over 300 million people in virtually every 
community.
    As your subcommittee works to craft the fiscal year 2011 
appropriations bill, we request that you include $4.2 billion for the 
Community Development Block Grant (CDBG) Program.
    The CDBG program equips communities with the resources they need to 
address serious community development challenges. The program has been 
an invaluable tool to help cities replace decaying infrastructure and 
provide safe places to live, work, learn and become physically active. 
Unfortunately, despite proven success, the CDBG formula grant program 
has seen a decrease in funding over the past few years going from $4.9 
billion in fiscal year 2004 to $3.9 billion in fiscal year 2010. This 
is a decrease of more than 20 percent in only 6 short years.
    According to the Department of Housing and Urban Development, 
approximately $100 million of CDBG funds are utilized annually for 
parks and recreation projects. This is not surprising since studies 
have shown that parks and recreational resources are often key 
components to the revitalization of communities and blighted areas as 
they increase property values, reduce storm water runoff, mitigate 
urban heat islands and improve health and wellness. The flexibility 
afforded through the CDBG program allows communities to implement funds 
in ways that best meet their specific needs such as including park and 
recreation projects as part of a comprehensive redevelopment 
initiative.
    The 2005-2010 5 year community development plan for Olympia, 
Washington cited an unmet need of $2.7 million for parks and recreation 
projects relative to community development. Throughout the State 
hundreds of projects are seeking funding for the acquisition of, and 
improvements to, parks and recreation facilities in order to improve 
the livability of moderate to low income neighborhoods and promote 
healthier, sustainable communities. Such projects are well positioned 
to be funded through the CDBG program.
    Missouri has utilized CDBG funds to address a host of community 
development needs throughout the State. In 2009 St. Louis leveraged 
over $5 million in CDBG money to improve accessibility of playgrounds 
for children with disabilities, for environmental remediation to reduce 
stormwater runoff, for sidewalk, and streetlight enhancements to make 
parks safer for families, and parks and recreation infrastructure 
improvements to support recovery efforts for neighborhoods suffering 
from high foreclosure and diminishing property values.
    The city of Tuscaloosa, Alabama leverages an average of nearly $1.5 
million in CDBG money on an annual basis to fund projects that address 
community development needs. Among these were projects bringing park 
and recreation facilities into ADA compliance to make them more 
accessible for persons with disabilities, improving playground 
equipment to make them safer for children, building walking trails to 
help the city become healthier and more livable, as well as enhancing 
park and recreation infrastructure to provide economic stimulus in 
economically depressed areas.
    The importance of CDBG, however, goes beyond providing safe 
infrastructure. Funding provided through the CDBG program often serves 
as the catalyst for private investment. In fact, the National League of 
Cities concluded that over the more than 30-year life of the program, 
CDBG has leveraged nearly $324 billion in new private investment in our 
Nation's communities. This equates to a three to one return on 
investment.
    CDBG funds also help to reduce crime and build a skilled workforce. 
Various parks and recreation departments throughout the country use 
CDBG funding in coordination with other community organizations, to 
provide educational services, employment training and youth development 
initiatives to low-income youth and their families. For example, in 
Phoenix, Arizona, the city parks and recreation department partners 
with a local non-profit called Kids Cafe to provide a safe and secure 
after school environment for children. This program provides low-income 
children with healthy, nutritious meals, as well as tutors and mentors, 
and engages them in recreational sports.
    For more than 30 years the CDBG program has played a critical role 
in revitalizing neighborhoods and improving the quality of life in 
communities throughout this country. CDBG funding provides valuable 
resources that allow communities to tailor projects to address their 
unique community needs. From ensuring the energy efficiency of public 
buildings to reducing crime and providing safe recreational 
infrastructure, CDBG funding is building healthy, livable and 
economically viable communities. The National Recreation and Park 
Association strongly supports increased funding for the CDBG program 
and calls on Congress to fund the program at $4.2 billion in fiscal 
year 2011.
    Thank you for this opportunity to present testimony.

</pre></body></html>
